<html>
<title> - AFGHANISTAN: BUILDING STABILITY, AVOIDING CHAOS</title>
<body><pre>[Senate Hearing 107-708]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-708
 
                    AFGHANISTAN: BUILDING STABILITY,
                             AVOIDING CHAOS
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 26, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate










                       U. S. GOVERNMENT PRINTING OFFICE
82-115                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Armitage, Hon. Richard L., Deputy Secretary of State, Department 
  of State, Washington, DC.......................................     6
    Prepared statement...........................................     7
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     2
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    63
Grange, Brig. Gen. David L., U.S. Army (Ret.), Chicago, IL.......    46
    Prepared statement...........................................    50
Tomsen, Hon. Peter, Special Envoy to Afghanistan (1989-1992) and 
  former Ambassador to Armenia, ambassador-in-residence, 
  University of Nebraska at Omaha, Omaha, NE.....................    42
    Prepared statement...........................................    44
Wolfowitz, Hon. Paul, Deputy Secretary of Defense, Department of 
  Defense, Washington, DC........................................     8
    Prepared statement...........................................    14
    Responses to additional questions for the record submitted by 
      Senator Biden..............................................    63

                                 (iii)

  


            AFGHANISTAN: BUILDING STABILITY, AVOIDING CHAOS

                              ----------                              


                        WEDNESDAY, JUNE 26, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met pursuant to notice, at 10:46 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Wellstone, Boxer, Bill Nelson, 
Lugar, Hagel, Chafee and Allen.
    The Chairman. The hearing will please come to order. We 
have two very distinguished witnesses in our first panel, and I 
will get to that in just a moment. I would ask unanimous 
consent, in the interest of time, that my formal statement be 
placed in the record at this moment as if read. Let me just 
very, very, very, very briefly summarize it, because I want to 
have as much opportunity to get to the issue of discussing 
Afghanistan with our first two witnesses.
    Whenever anyone asks me about Afghanistan, and whether or 
not we should be there, and should we expand the force, and so 
on, I always say, ``Everybody ought to try to think back why 
did we go in the first place. Why did we go in the first 
place?'' Interestingly enough, I think, as usual, the American 
people are way ahead of the political leaders in both parties, 
the administration, the Congress throughout the country, in 
that in a recent Gallup poll, 80 percent think the United 
States should keep troops in Afghanistan, while 16 percent of 
the U.S. population thinks we should take the troops out. The 
bottom line is, they understand why we went in the first place.
    What I want to examine today, because I have had, and I 
want to say it publicly, absolute cooperation, as chairman of 
this committee, from the State Department and from the White 
House. I do not interface as well, and I always--anything with 
Secretary Wolfowitz has always been responded to, but I do not 
interface with Defense as much in my capacity as chairman of 
this committee. But two things have emerged, and I just want to 
give the witnesses a heads-up of the direction I would like to 
take this hearing.
    I know I am a broken record to both of them about the need 
to expand the international security force. It seems as though 
we have replaced the strategy--not replaced; we have, instead 
of a strategy of an international security force being extended 
beyond Kabul, that we basically have, my phrase, not yours, a 
warlord strategy, which is, if there is peace and calm in any 
of the four major sectors of Afghanistan, even though it is 
imposed by and/or is primarily accountable to the fact that a 
warlord is in charge, that--that constitutes stability.
    I also want to talk about the time needed to buildup an 
all-Afghan army and police force, its status, its personnel, 
its timing. Because as I understand the basic underlying 
premise of the administration, one that I do not disagree with, 
is that there is a need to have a central government, have a 
security force that is made up of all factions, all of the 
major tribes represented in Afghanistan, and a police force, 
and that the notion would be that they would be the ultimate 
stabilizers of a government.
    But there is sometimes, as my grandmother would say, 
something missed between the cup and the lip, and we have to 
get to that point. How long is it going to take us to get to 
that point, what kind of progress are we making to get to that 
point, and what is the structure for stability in the meantime? 
That is what I want to talk about today.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Over the past half-year we have achieved great battlefield success 
in Afghanistan. Our servicemen and servicewomen have defeated the 
Taliban, and gotten al-Qaeda on the run. We haven't yet captured bin 
Laden, but I'm confident that we'll achieve this goal.
    As we reach the next stage in the war, several questions arise: 
What is status ongoing operations against al-Qaeda presence in 
Afghanistan? What is the humanitarian situation? What is our assessment 
of the loya jirga process?
    Perhaps the most important question, however, is one of commitment: 
Will we stay the course and build security in Afghanistan, or will we 
permit this country to relapse into chaos?
    President Bush has often promised that America will lead the way in 
the reconstruction of Afghanistan. His April reference to the Marshall 
Plan was particularly apt: After World War II, America used its 
soldiers as peacekeepers and its dollars as peacebuilders.
    This may have been the wisest investment of the past century: We 
turned our most bitter foes into our staunchest allies.
    But if we're going to talk about a new Marshall Plan, we should be 
willing to back up our words with deeds.
    The original Marshall Plan cost $90 billion in today's dollars. Our 
total pledge for Afghan reconstruction is less than 1 percent of that, 
and we've only delivered a fraction of this pledge.
    All the money in the world, however, won't do much good without 
security. Absent that, any reconstruction funds will be siphoned into 
the pockets of greedy warlords. And that, in fact, is exactly what 
we're seeing right now.
    In Mazar-e Sharif recently, a U.N. worker was gang-raped by seven 
armed men--in a part of the country controlled by two warlords, one of 
whom serves as the government's Deputy Defense Minister.
    In the eastern portion of the country, a warlord named Bacha Khan 
seized control of an entire province in April, and still stands in open 
defiance of the legitimate government in Kabul.
    In Herat, the warlord Ismail Khan has invited Iranian agents to 
help him consolidate power, while reports of human rights abuses 
skyrocket.
    What do these cases--typical of the situation throughout the 
country--have in common? These warlords are all on the U.S. payroll.
    Maybe I'm missing something here, but I just don't think this makes 
sense. Asking warlords to uphold law and order is like asking the Cali 
cocaine cartel to be our partners in the drug war.
    Warlords aren't the solution to Afghanistan's problems--they're the 
cause of Afghanistan's problems.
    The long-term solution is to rebuild Afghanistan's army and police 
force--but that can't happen overnight.
    In the meantime--at least a year, and probably longer--there are 
only three alternatives:
    Use American troops as peacekeepers. Build up a robust 
international force. Or let Afghanistan revert to chaos.
    U.S. forces seem to be involved in de facto peacekeeping right now. 
Wouldn't it be better to clarify the mission, and let our allies share 
the burden?
    Afghan leader Hamid Karzai, U.N. Secretary-General Kofi Annan, and 
nearly every expert on the region has called for expansion of the U.N.-
mandated security force, ISAF, both in scope and tenure. In my view, 
this is clearly in our national interest. We should view ISAF as a 
force-multiplier.
    Without U.S. or U.N. peacekeepers, we're left with the third 
option: letting Afghanistan degenerate into the state of lawlessness 
that made way for the Taliban. After the Soviet withdrawal in 1989, 
America turned its back as the country disintegrated.
    President Bush has rightly promised not to repeat this mistake. If 
we fail to uphold the President's promise, Afghanistan will again 
become a den of terrorists, narcotics traffickers, and exporters of 
violent insurgency.
    One other factor makes such a failure unacceptable to our national 
interest: Afghanistan is a test case for Iraq.
    Anyone who wants to see Saddam Hussein removed from power in Iraq--
as I do--will be looking very closely at the administration's game plan 
in Afghanistan. Simply put, if we can't demonstrate long-term 
commitment in Afghanistan, nobody will trust us to make a long-term 
commitment in Iraq.
    Ousting Saddam, like ousting the Taliban, is only the first step in 
a long process. Everyone knows we can remove an evil regime. The 
question is, are we willing to expend the security, financial, 
diplomatic, and political resources to make the successor regime a 
success?
    The U.S. has power--but do we have staying power?
    We have with us today several highly distinguished witnesses.
    Deputy Secretary of State Richard Armitage has recently returned 
from a mission to South Asia, where he successfully averted a nuclear 
war--not bad for a few days' work.
    Deputy Secretary of Defense Paul Wolfowitz has been one of the 
administration's leading architects of strategic planning for 
Afghanistan; I am particularly looking forward to his detailed 
discussion of these plans for assuring Afghan security in the months to 
come.
    Ambassador Peter Tomsen knows the political landscape of 
Afghanistan inside-out. As special envoy to Afghanistan for the 
previous President Bush, he dealt with many of today's power-brokers 
long before they had any real power to broker. He is currently 
ambassador-in-residence at the University of Nebraska, Omaha.
    Brig. Gen. David Grange earned three Silver Stars and two Purple 
Hearts during his service in Vietnam, and has served in Delta Force, 
Ranger and other Special Operations units during his 30-year military 
career. As commander of Task Force Eagle in Bosnia, he is particularly 
well-equipped to comment on U.S. participation in peacemaking 
operations.
    Up to now, the administration's plan has seemed to focus on the 
hope that warlords, if properly motivated with cash and weapons, will 
become reliable partners for peace.
    But as Secretary of State Powell once said, in his capacity as a 
military planner, ``Hope is not a strategy.''
    Perhaps today's hearing will give us a clearer picture of the 
strategy underlying this hope.

    The Chairman. I am anxious to hear from both our witnesses, 
and with that, I will yield to my colleague, Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
would like to join you in welcoming Deputy Secretary of State 
Armitage and Deputy Secretary of Defense Wolfowitz to this 
committee. I look forward to their testimony and reviewing with 
them Afghanistan's prospects for the future.
    I am hopeful that we are witnessing the emergence of a free 
and stable Afghanistan from more than two decades of war and 
instability, but it is clear that at least for the foreseeable 
future, Afghanistan's evolution will be marked by both advances 
and setbacks. And since the commencement of offensive military 
operations in Afghanistan, I have urged the administration to 
think simultaneously about what steps will be necessary to 
rebuild the nation after the Taliban and al-Qaeda were removed.
    I was pleased that, early on, President Bush stated that 
the United States would, and I quote, ``Not just simply leave 
after the military objective has been achieved.'' The 
administration correctly recognized that, without providing the 
people of Afghanistan with an environment in which the 
construction of a democracy and market-based economy was not 
only possible, but likely, the country would remain a source of 
insecurity and terror.
    The United States' international efforts have permitted the 
people of Afghanistan to begin rebuilding their economy, their 
government, and personal liberties, and I applaud the role that 
the international coalition has played in carrying out the 
reconstruction efforts, and the provision of humanitarian 
assistance. Unfortunately, despite this strong record of 
success, the future of Afghanistan remains uncertain. Without a 
strong international commitment to the reformation of a 
representative and effective government, our efforts could go 
to waste.
    The loya jirga recently completed its work, selected Hamid 
Karzai to be President. Karzai continues to construct a broad-
based representational government to rule Afghanistan. Pundits 
here in Washington and around the world are debating the 
criteria employed in selecting cabinet members of the new 
government, and it is clear to most that the current security 
situation in Afghanistan was the primary determination in the 
selection process.
    I am supportive of efforts underway to expand training and 
equip a new Afghan national army. A successful transformation 
is one of the most important elements of long-term security, 
but in the meantime I continue to be concerned that the 
International Security Assistance Force, ISAF, may not be up to 
the task of ensuring the requisite amount of security for 
Afghan reconstruction to continue.
    The ability of ISAF to maintain peace and security, and to 
project power into the farthest region of Afghanistan, is 
vitally important if the international community is to assist 
Karzai in enforcing the rule of law, and defending the threat 
posed by extremists, warlords, and terrorists. Only then can we 
replace Afghanistan's despair with a genuine future of hope.
    Afghanistan's reconstruction efforts have benefited, for 
the moment, from the capture of major al-Qaeda operatives as 
well as the dispersal of other major players around the world. 
Their likely strategy is to prepare and to undertake suicidal 
attacks against Western and Jewish targets, especially in Arab 
states allied with the West, while larger operations are 
prepared for the United States, such as the so-called ``dirty 
bomb'' plots.
    Though relatively small and widely dispersed, the al-Qaeda 
strikes appear to be coordinated by a senior group of leaders. 
In short, al-Qaeda's command structure may have survived the 
United States' military campaign in Afghanistan, even though 
its base in the country was eliminated.
    Instances like the bombing of a Tunisian synagogue and 
French and American targets in Karachi do not have the profile 
or drama of past military clashes in Afghanistan, but al-Qaeda 
attacks are likely to occur at any time and almost anywhere, 
including Afghanistan. Countering them has become as much a 
task for police and intelligence as a military operation. Help 
from other governments, especially in the Islamic world, is 
vital, as is effective monitoring of potential targets, 
including infrastructure and weapon sources.
    We know that a substantial number of al-Qaeda operatives 
managed to escape Afghanistan, and travel undetected, at least, 
at first, to countries around the region. We also believe a 
substantial number will look for opportunities to infiltrate 
back into Afghanistan. Most seriously, the alleged plot 
involving Jose Padilla, the alleged al-Qaeda recruit arrested 
in Chicago, has the evidence that al-Qaeda is determined to 
strike with weapons of mass destruction, and is actively 
seeking to procure or steal them.
    It is that concern that has led a number of us to recommend 
to the Bush administration that the United States formulate a 
new global coalition designed to keep nuclear and bioweapons 
out of the hands of al-Qaeda and other terrorists. In short, 
Afghanistan is not out of the woods yet, any more than 
terrorist threats to the United States involving weapons of 
mass destruction have lessened since September 11.
    I look forward to hearing from our witnesses on how the 
United States can assist in bridging the gap in ISAF's 
abilities and capabilities, and the threats posed to Karzai's 
young and still fragile government, even as the Bush 
administration focuses on preventing terrorists from acquiring 
weapons of mass destruction. I thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I might note that there are a number of people in the 
audience who have been keenly interested in this subject. Among 
them, as working with the President, have been women's groups 
in the United States, who have testified before this committee 
about the security question, and today the Feminist Majority, 
now the Women's Alliance for Peace and Human Rights in 
Afghanistan, and NOW Legal Defense Fund and Education Fund, and 
the Equality NOW, are all represented here in the audience, and 
have importuned this committee and this chairman on occasion, 
and I am sure they have at the State Department. I know they 
have spoken with the Secretary.
    Today's paper, the New York Times, and other major papers 
are full of stories relative to the assertiveness of women in 
Afghanistan, taking significant risks to make sure they do not 
go back to the Dark Ages that they just came out of. So I 
welcome them and others that are here today.
    We have two very distinguished witnesses. Deputy Secretary 
of State Richard Armitage recently returned from a mission in 
South Asia, where he successfully averted a nuclear war. Not 
bad for a few day's work. You did a hell of a job, Rich; 
congratulations. I want to state again publicly, I think the 
administration, and you in particular, played a very 
significant role in diffusing the single most dangerous 
circumstance that exists at the moment.
    We also have Deputy Secretary of Defense Paul Wolfowitz, 
who has been one of the administration's leading architects of 
strategic planning for Afghanistan. I am particularly looking 
forward to his discussions on plans for sharing security in the 
months to come, and I want to thank him again, not only for his 
being publicly available, but privately available whenever we 
have sought, or I have sought, at least, any information from 
him.
    I invite you to make any comments you wish in your 
statements, and do not worry about the clock. We are anxious to 
hear what you have to say. So as fully as you think you need to 
speak, please feel free. Do not worry about these lights going 
on. They will go on for us, not for you. Mr. Secretary, you can 
begin.

  STATEMENT OF HON. RICHARD L. ARMITAGE, DEPUTY SECRETARY OF 
           STATE, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Armitage. Thank you, Mr. Chairman, Senator Lugar, 
Senators.
    Paul and I have, in our professional lives, spent a 
considerable amount of time in this very room in front of this 
panel, and we have come to realize, at least I have, that the 
patience of the committee is in inverse proportion to the 
length of my opening statement. So I am going to keep it very 
short, and I know you will allow me to have my comments 
submitted for the record.
    I just thought I would mention briefly the winners and the 
losers in the recent loya jirga, and what is left to do. I 
think the winners, first of all, are pretty easy to enumerate: 
the Afghan people and, particularly, women. This committee--the 
whole Congress, but this committee in particular, has been very 
interested in all the women in Afghanistan. I think the 
newspaper article in the New York Times, to which you referred, 
Mr. Chairman, is witness to the fact that in 6 months' time, 
women have gone from being held basically in contempt in Afghan 
society to a role where they felt secure enough to take part in 
a very robust and boisterous loya jirga. So the Afghan people, 
and women in particular, are the first winners.
    Second, Hamid Karzai is clearly a winner. He is a much 
better politician than any of us knew 6 months ago, and he 
managed competing pressures very, very well. He has to be 
considered in the winner's category.
    Another is a Tajik by the name of Fahid Khan, who is the 
First Vice President and still the Minister of Defense. He 
would have to be considered to have come out a winner.
    Fourth, the international community has been a winner, 
because we have been part of, thus far, what is a great success 
story, and I think it far outstripped in pace any ideas that 
any of the pundits had about the ability to resolve the 
questions of Afghanistan in anywhere near this rapid timeframe.
    The fifth winner are the coalition forces. Primary among 
them, of course, the United States and the ISAF, because in the 
minds of many in Afghanistan, there is not much difference 
between the coalition and ISAF. And we are the ones who made it 
possible for the Afghan people to eschew the role of the gun 
and the rule of the gun.
    Now, who are the losers? Well, I think you have to 
consider, at least in the short term, that the conservatives 
are the losers. They lost some serious altitude during the loya 
jirga. They were boisterous. There was some intimidation, or at 
least attempts at it, mostly verbal, but they lost ground.
    The second people who lost ground were some of the families 
of Zahir Shah, who envisioned a much greater role, a more 
active role for the former king, and they did not have their 
dreams realized.
    I think, third, one has to realize that there are some in 
the Pushtun community who feel that they lost ground, or they 
did not command as many portfolios as they might have hoped. 
There is a lot of misinformation in the public about what the 
makeup of Afghan society really is. In percentage terms, we 
have not had a census since 1979, so any numbers that anybody 
talks about are extrapolations from 1979. We do not know what 
percentage the Pushtuns or the Tajiks really have in the 
overall population, but I think it is fair to say that some in 
the Pushtun community are a little disappointed.
    Now, what is left for President Karzai to do? Well, I 
think, first and most importantly, he has to consolidate the 
instruments of power and he has to extend them out into the 
countryside to get to the very thing you mentioned, Mr. 
Chairman, and that is warlords and warlordism.
    Second, I think Afghanistan's society has to come to grips 
with the role of Islam in their nation. Do they envision 
themselves as a Turkey, or a Pakistan, or what? And I think 
that is a debate that we are going to see and witness as we 
move to the future.
    Finally, Mr. Karzai and the 29 ministers who make up his 
cabinet have to very definitely be seen in relatively rapid 
fashion, not only formulating a constitution to be voted on in 
about 18 months, but to be able to extend the fruits of the 
international community's largesse, particularly in terms of 
reconstruction aid to far-flung areas in Afghanistan. Those are 
three pretty big challenges for any cabinet and any President. 
Mr. Chairman, I will stop there, and turn it over to my 
colleague and friend, Paul Wolfowitz.
    [The prepared statement of Secretary Armitage follows:]

  Prepared Statement of Hon. Richard L. Armitage, Deputy Secretary of 
                                 State

    Thank you, Mr. Chairman, for the opportunity to testify before the 
Committee on recent developments in Afghanistan. We have a good story 
to tell. For hope is returning to Afghanistan. It is no longer the 
country it was on September 11--a haven for terrorists, suffering from 
tragic social decline and serious abuses of human rights, especially 
women's rights.
    There is still much work to be done but, as President Bush has 
emphasized, the United States is committed to Afghanistan for the long 
haul. We will continue to work closely with the international community 
to help the Afghans help themselves in building a stable, broadly 
representative Afghanistan that can never again be a haven for 
terrorists.
    Our focus in Afghanistan continues to be on conducting the war on 
terrorism, putting in place security arrangements, fostering 
Afghanistan's internal governance, and providing humanitarian and 
development assistance.
    Let me briefly review each in turn.
    The war on terrorism is based on bringing the international 
community's combined strengths to bear against terrorism in its many 
manifestations throughout the world. In Afghanistan, Operation Enduring 
Freedom is not over and will not be finished until the last remnants of 
al-Qaida and the Taliban are flushed out and destroyed. Still, we are 
already taking up the tasks that will ensure that Afghanistan is never 
again a base for terrorism.
    With respect to security arrangements, the International Security 
Assistance Force (ISAF) is performing a very positive role by helping 
provide security in and around Kabul--through joint patrols with local 
police; security for special events, such as the loya jirga; and the 
rehabilitation and operation of Kabul International Airport. ISAF 
includes some 5,000 troops from 19 countries, with Turkey having 
recently taken the lead from the United Kingdom.
    The backbone of Afghanistan's future security structure must be the 
new Afghan National Army (ANA). The United States has taken the lead, 
working closely with ISAF, the French, and other coalition partners, in 
training and equipping troops for the ANA. Germany has the lead, with 
United States and other international assistance, on developing a 
viable police force.
    Afghanistan has also made large strides in opening up its politics 
and improving its governance. The Afghan Interim Authority (AIA), which 
governed for the six months before the loya jirga, was a multi-ethnic, 
broadly representative government that succeeded in establishing a 
basis for a central government that will remain responsive to the will 
of the Afghan people.
    The AIA ably performed the role that the Bonn Agreement laid out 
for it. It was responsible for many successes, such as reopening 
schools, including schools that educate girls; putting in place the 
starting points for building national security institutions; 
establishing judicial and human rights commissions; reintegrating women 
and ethnic minorities into society; and announcing and beginning to 
implement a ban on opium cultivation and harvesting. We will continue 
to work with the Afghan Transitional Administration to protect the 
rights of women and encourage their effective participation in civic 
life.
    Significant progress has also been made in creating an inclusive 
political process that generates incentives for groups and individuals 
to give up armed struggle for political goals. The Emergency loya jirga 
began the process of healing the country's wounds by bringing together 
Afghans from all ethnic groups, religions, and political persuasions to 
discuss Afghanistan's future. It elected Chairman Karzai to continue to 
lead Afghanistan for the next two years, the cabinet has been selected, 
and steps have been taken toward creating a National Assembly.
    Nonetheless, the road ahead is long, as demonstrated by the sharp 
political disputes at the loya jirga and continuing concerns about the 
security of international assistance workers, particularly in northern 
Afghanistan.
    There has also been progress in meeting the humanitarian needs of 
Afghans and beginning the process of reconstruction, but gaps remain. 
The new Transitional Authority faces major challenges, beginning with 
the need to fill the gap between needs and pledged resources. The 
Afghan government predicts a $390 million budgetary shortfall this 
year.
    The World Bank, Asian Development Bank and UNDP estimate 
reconstruction needs of $1.7 billion over the next year, while 
humanitarian and security assistance needs could raise this figure to 
$2.9 billion. The long term costs of this project over the next five 
years are going to be tremendous, perhaps as much as $10 billion.
    Refugees are returning at a faster rate than expected--more than 
one million to date, with up to two million expected by the end of the 
year. While this is a welcome sign of the return of normality, UN and 
other agencies tasked with helping refugees and displaced persons are 
facing potentially crippling funding shortfalls as the higher refugee 
inflow has driven costs faster than predicted.
    U.S. contributions to Afghanistan have already exceeded the $297 
million pledged earlier this year in Tokyo. Appropriated funds for 
fiscal year 2002, plus requested funds for FY 2003 and a $250 million 
supplemental request currently before Congress, would boost official 
American assistance to over $900 million for FYs 2002 and 2003 
combined. This does not include funding for U.S. military operations.
    Mr. Chairman, the United States, the Afghan people and the 
international community have undertaken an enormous job, but one that I 
believe is critical to our national goals and well worth the costs. We 
must stay the course, and with your continued support, Mr. Chairman, 
and that of this Committee, I am confident we will succeed.

STATEMENT OF HON. PAUL WOLFOWITZ, DEPUTY SECRETARY OF DEFENSE, 
             DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Mr. Wolfowitz. Mr. Chairman, thank you.
    This distinguished committee has long provided our country 
strong leadership and bipartisan support, especially now that 
we are waging this war on terrorism, and I thank you for that. 
I thank you also for the opportunity to come here today to 
discuss the Department of Defense's perspective on how the 
campaign in Afghanistan to kill, capture, and disrupt 
terrorists has helped us to protect the American people, and 
also to discuss how we are helping the Afghan people help 
themselves, to ensure that their country does not, once again, 
become a terrorist sanctuary.
    To chart the way ahead, Mr. Chairman, it is important to 
understand how we got to where we are, so let me spend a moment 
on the early parts of the military operation. From the 
beginning of the war on terrorism, President Bush emphasized 
that the United States must apply, as he said, every resource 
at our command, every means of diplomacy, every tool of 
intelligence, every instrument of law enforcement, every 
financial influence, and the President concluded, every 
necessary weapon of war to the destruction and defeat of the 
global terror network.
    Each of those instruments has a role. Each one reinforces 
the other. The military is only one of the instruments that we 
need to wage this war on terrorism. The military cannot do its 
job without the support of other elements, particularly 
intelligence and diplomacy, and its role is frequently to 
support the efforts of those other instruments of national 
power.
    This hearing is focused, and appropriately so, on 
Afghanistan and on our military effort there, but it is 
important to emphasize, as we have done from the beginning, 
that this campaign is not about a single country or a single 
terrorist network. Al-Qaeda alone has spread throughout the 
world. It is a network. A network by its very nature is based 
on the idea that should one node be eliminated, the network can 
still continue to function.
    Well before September 11, 2001, al-Qaeda had burrowed into 
some 60 countries, including the United States, Germany, 
France, Morocco, Saudi Arabia, and the Philippines. It had 
critical nodes in Hamburg, Germany, and Jacksonville, Florida, 
as well as in Afghanistan. The pilots who flew the suicide 
attacks were not trained in Afghanistan. Many got their 
training right here in the United States.
    So Afghanistan was an important node in the network, but by 
its nature, a network does not have a headquarters. So while we 
focus on Afghanistan today, we must understand that it is only 
one node of that terrorist network. The very name of the 
organization, al-Qaeda, which means ``base'' in Arabic, 
indicates that the entire organization is the base of terrorist 
operations. It is spread throughout the world, and it needs to 
be eliminated, root and branch.
    In Afghanistan, where al-Qaeda's plots and plans flourished 
under the protection of the tyrannical Taliban, America's Armed 
Forces went to work to root out both. Our intention, as 
Secretary Rumsfeld said, was not only to deprive the terrorists 
of a sanctuary in Afghanistan where they could safely plan, 
train, and organize, but also to capture and kill terrorists, 
and to drain the swamp in which they breed.
    Over the last 8 months, with our coalition partners, we 
have defeated a vicious regime that gave refuge to evil. We 
have killed or captured many of its ringleaders, and we have 
others on the run. Even in Afghanistan, however, our work is 
far from complete, but we are encouraged by the many truly 
remarkable aspects of this campaign to date.
    Our military campaign in Afghanistan has had some striking 
features, some surprising, others less so. Not surprisingly at 
all, we have seen America's men and women in uniform conduct 
their operations with great bravery and great skill, as we saw 
at Mazar-e-Sharif and Tora Bora, and in Operations Anaconda and 
Mountain Lion.
    What may have been a surprise to some was the remarkable 
speed with which the military plans were put together, the 
swift success of the military operations, measured in weeks, 
rather than months, and with relatively few troops on the 
ground. On September 11, let me remind you, there simply were 
no war plans on the shelf for Afghanistan. General Franks was 
starting from scratch on September 20, when he received the 
order from the President to begin planning a campaign. Less 
than 3 weeks later, on October 7, we commenced military 
operations, and less than 2 weeks after that, we had troops 
operating on the ground with General Dostam in the north. In 
many ways, it was a remarkable feat of logistical and 
operational utility.
    If you would permit me, Mr. Chairman, I would like to read 
from an actual dispatch that we received from one of those 
Special Forces captains on the ground, or more accurately, on 
horseback, in northern Afghanistan. This is from October 25, 
shortly after he and his unit were inserted:
    ``I am advising a man on how best to employ light infantry 
and horse calvary,'' he said, ``in the attack against tanks, 
mortars, artillery, personnel carriers, and machine guns, a 
tactic which I thought had become outdated with the invention 
of the Gatling gun. The Mujaheddin have done that every day we 
have been on the ground. They have attacked with 10 rounds of 
ammunition per man, little water, and less food. I observed one 
man who walked 10-plus miles to get to the fight, who proudly 
showed me his artificial right leg from the knee down.
    ``There is little medical care if injured, only a donkey 
ride to the aid station, which is a dirt hut, but the Muj are 
doing very well with what they have. We couldn't do what we are 
doing,'' he went on, ``without the close air support. 
Everywhere I go, the civilians and Muj soldiers are always 
telling me they are glad the USA has come. They all speak of 
their hopes for a better Afghanistan once the Taliban are gone. 
Better go,'' he concluded, ``General Dostam is finishing his 
phone call with a Congressman back in the United States. Yes, 
we had that element of this fight as well.''
    Another dispatch from one of his comrades on November 10, 
after the fall of Mazar-e-Sharif, reads in part: ``We rode on 
begged, borrowed, and confiscated transportation. While it 
looked like a ragtag procession, the morale into Mazar was 
triumphant. The locals loudly greeted us, and thanked all 
Americans. Much waving, cheering, and clapping, including from 
the women. The U.S. Navy and Air Force''--this from an Army 
man--``did a great job. I am very proud of my men, who 
performed exceptionally well in extreme conditions. I have 
personally witnessed heroism under fire by two U.S. 
noncommissioned officers, one Army, one Air Force, when we came 
under direct artillery fire last night, less than 50 meters 
away. When I ordered them to call close air support, they did 
so immediately without flinching.''
    ``As you know, the U.S. element was nearly overrun 4 days 
ago, but continued to call close air support and ensured the 
Muj forces did not suffer defeat.'' He concluded, ``These two 
examples are typical of the performance of your soldiers and 
airmen. Truly, uncommon valor has been a common virtue.''
    In many ways, those two dispatches, I think, capture the 
ingredients of an extraordinary military success. But another 
element of our success, which was undoubtedly a surprise to the 
terrorists but barely noticed by many others, was something 
that did not happen, something that calls to mind Sherlock 
Holmes' famous observation about the dog that did not bark. We 
did not become bogged down in a quagmire, unlike the British in 
the 19th century, or the Soviets in the 20th. Nations that 
arrive in Afghanistan with massive armies tend to be treated as 
invaders, and they regret it. Mindful of that history, General 
Franks has deliberately and carefully kept our footprint small 
to avoid just such a situation. On balance, our partnership 
with indigenous forces has been very positive and continues to 
be so.
    From the beginning of the war on terrorism, we have 
stressed the importance of understanding the nature of our 
enemy as a network. Al-Qaeda is not a snake that can be killed 
by lopping off its head. It is more analogous to a disease that 
has infected many parts of a healthy body. There is no one, 
single solution. You cannot simply cut out one infected area 
and declare victory, but success in one area can lead to 
success in others, and our success in Afghanistan has 
contributed to the larger campaign.
    In Afghanistan itself, through actions there, somewhat less 
than half of the top 30 or so leaders of the al-Qaeda 
organization have already been killed or captured. Well over 
500 enemy are currently detained in Guantanamo or in 
Afghanistan as a direct result of our operations in that 
country. But equally important, if not more so, the worldwide 
efforts of our law enforcement and intelligence agencies, in 
cooperation with more than 90 countries, have resulted in the 
arrest of some 2,400 individuals.
    Our military success in Afghanistan has contributed to that 
larger success, both indirectly, by encouraging others to 
cooperate, and also more directly. Abu Zubayda, for example, 
one of bin Laden's key lieutenants, was driven out of his 
sanctuary in Afghanistan, and as a result, was captured last 
March. His partial cooperation, in turn, contributed to the 
detention of Jose Padilla, who came into the United States with 
the intention of planning and coordinating terrorist attacks.
    A Moroccan detainee in Guantanamo led us to three Saudis 
planning terrorist attacks in Morocco, all of whom were 
subsequently arrested, including one top al-Qaeda operative. In 
December, the discovery of a videotape in a safe house in 
Afghanistan led to the arrest of an al-Qaeda cell in Singapore 
that was planning to attack a U.S. aircraft carrier and U.S. 
personnel in that country. The cooperation of Pakistan under 
the leadership of President Musharraf has been extraordinary, 
leading to nearly 400 arrests in that country alone.
    These developments are encouraging; however, it is 
important to remember that al-Qaeda is still dangerous and 
active. This network still poses threats that should not be 
underestimated.
    Let me talk now about our efforts to build a more stable 
Afghanistan in the long term. Because while our primary mission 
in that country has been to kill or capture terrorists who 
threaten the United States, or those who have harbored them, it 
is also important to help the Afghans establish long-term 
stability in that country, so that it does not once again 
become an outlaw country that provides sanctuary for 
terrorists.
    While the success of those efforts will depend most of all 
on the Afghans themselves, the United States and its coalition 
partners have a critical role to play in achieving that goal. 
In shaping that role, and as in shaping the military campaign 
itself, we are very mindful of that historical Afghan animosity 
to foreign armies and foreign occupiers. We have always viewed 
our mission in Afghanistan as one of liberation, not 
occupation. So with this in mind, we have tackled the challenge 
of striking the balance between keeping Afghanistan from 
reverting back to a terrorist sanctuary, and at the same time, 
keeping our footprint small.
    Afghans are an independent, proud people, and we have 
worked from the beginning to minimize the number of our troops 
there, and to focus instead on helping the Afghan people to 
help themselves in their journey to representative self-
government. We have made it clear, and we need to continue to 
do so, we have no intent of colonizing Afghanistan. We have 
been careful through our actions and our words to avoid 
creating the expectation that the United States can solve all 
of that country's problems, and we have made a determined 
effort not to take sides in Afghanistan's internal quarrels. 
But we have, in fact, seen that Afghans are good at solving 
problems when they must, and we must help them to deal with as 
many as they can.
    There are positive signs that Afghans are making progress. 
Secretary Armitage described in his testimony how the Afghan 
people made a significant step forward with the successful 
convening of the loya jirga. But along with self-government 
must come self-sufficiency, in terms of Afghanistan's security. 
That task is made more challenging by the formidable geography 
of Afghanistan. It is a country roughly the size of Texas, with 
peaks in the Hindu Kush Range, which translated, by the way, 
means ``Hindu Killer,'' that reach some 24,000 feet, 10,000 
feet higher than the highest of the Rockies.
    If I might, Mr. Chairman, I would like to put up a chart. 
When we say that it is roughly the size of Texas, at least for 
those of us who are not natives of Texas, it may not carry 
enough meaning. I found it more meaningful to look at a map of 
Afghanistan superimposed on the southern United States, and you 
can see that it would stretch from Washington, DC, down almost 
to New Orleans, and from St. Louis, Missouri, down past 
Atlanta. It is huge.
    It is not only large, but if I could show you another 
chart, it has incredible terrain. This is a satellite 
photograph of Afghanistan, and the neighboring regions of 
Pakistan. You can see the enormous expanse of mountains, and 
down in the southwest corner, that formidable desert, which, in 
the Afghan language, is called the Desert of Death.
    The sheer size and unforgiving terrain of the country has 
been a major factor in planning our military operations, and it 
must remain a key factor in planning long-term security 
arrangements; but, encouragingly, the situation is becoming 
more stable. Out of 32 provinces in Afghanistan, our forces 
have experienced harassment mainly in only 5. The Taliban has 
so far failed to mount their often predicted spring offensive, 
and loya jirga convened with no serious security incidents, 
despite numerous threats.
    Our coalition partners are contributing to stability 
through their humanitarian work. It is especially worth noting 
that Jordanian personnel have been running a field hospital, 
which by itself, to date, has treated some 77,000 Afghan 
civilians. The overall improvements in conditions in the 
country are perhaps best demonstrated by the fact that people 
are voting with their feet. In just the first 5 months of the 
year, 1.2 million refugees are recorded as having returned to 
Afghanistan. That was the U.N.'s projection for the entire year 
of 2002. The U.N. has now doubled its target to 2 million 
refugees that they hope will return in this calendar year.
    On the security front, we are committed to working with the 
Afghan Transitional Authority and the international community 
to find effective solutions to the remaining challenges to that 
country's security. One of the most important pieces is 
training the Afghan army. At the beginning of May, U.S. Army 
instructors took on the task of helping to build an Afghan 
national army by initiating the training of the first group of 
Afghan recruits. Coalition partners are also assisting in this 
effort. France has already begun training a battalion, and 
others, including the United Kingdom, Turkey, Bulgaria, Poland, 
Korea, India, and Romania, are assisting with personnel, or 
funding, or equipment.
    I would appeal to you, Mr. Chairman, and all of the Members 
of the Senate and of the House, to approve as rapidly as 
possible our supplemental request for fiscal year 2002. It 
contains a request for $50 million in FMF and $20 million in 
peacekeeping operations funds that would permit us to 
accelerate the training and equipping of an Afghan army.
    The biggest gap, I must say, in this effort has been the 
lack of authorities for funding. Even though we have a lot of 
money for other purposes, we have to scrape around and go to 
some of the countries I just mentioned in order to get the 
funds for salaries or equipment.
    To further enhance regional stability, the 18-nation 
International Security Assistance Force has been helping to 
stabilize the situation in the capital of Kabul. The British 
did a splendid job leading that effort in its first 6 months, 
and we expect the same from our Turkish allies who have now 
agreed to take over the lead.
    Last month, the U.N. Security Council extended ISAF's 
mandate in Kabul until the end of the year. ISAF forces helped 
to train the Afghan national guard that protected Kabul during 
the loya jirga. Other important efforts to provide a more 
secure environment include the very important German-led effort 
to train a police force, and British counterdrug operations.
    However, the most important instrument that the Afghan 
Authority and we have to establish a stable security situation 
is the leverage provided by economic assistance. It is in our 
interest to provide such assistance, and to help the Afghans 
rebuild their country after almost a quarter century of war so 
that it will not once again become a haven for terrorists.
    The leadership provided by the State Department, as 
described by Secretary Armitage, has been key to that effort. 
Particularly important was the organization of the Tokyo Donors 
Conference that Secretary Armitage described. In support of 
those reconstruction efforts, the U.S. Central Command 
[CENTCOM] is also executing a plan to collocate personnel from 
the U.S. Agency for International Development and the State 
Department besides our Special Forces and civil affairs teams 
that are operating throughout the country. This will allow 
USAID people to get out beyond Kabul and better monitor U.S. 
assistance, while providing them some protection in what 
remains an insecure environment.
    To conclude, Mr. Chairman, the campaign in Afghanistan, 
along with many other efforts now underway by many instruments 
of our government, has contributed to the disruption of the 
global terror network in tangible and far-reaching ways. Our 
task extends well beyond Afghanistan, and even in Afghanistan 
it will still be a long and difficult one, but the stakes are 
enormous.
    As President Bush said, speaking to the cadets at West 
Point 2 weeks ago, ``We have our best chance since the rise of 
the Nation state in the 17th century to build a world where the 
great powers compete in peace, instead of prepare for war.''
    We can do this not by imposing our own model of human 
progress on other nations of the world, but, as the President 
said, ``we can support this effort when we reward governments 
that make the right choices for their own people.''
    In our development aid, in our development efforts, in our 
broadcasting, and in our educational assistance, the United 
States will promote moderation, tolerance, and human rights, 
and we will defend the peace that makes all progress possible.
    In Afghanistan today, we see a democratic spirit rising 
from the remnants of a once-failed state that is trying to defy 
the ravages of decades of war and misrule. Despite a beginning 
that will at times be rocky, and no doubt suffer some setbacks, 
the Afghan people are hopeful for a new tomorrow, hopeful that 
they, too, can have a chance at peace instead of war. We remain 
committed to doing our part to help them on that journey, and 
we want history ultimately to judge us as having been dedicated 
to liberation, not occupation. We appreciate the continued 
leadership of this committee and the support of the Congress in 
these ongoing efforts. Thank you.
    [The prepared statement of Secretary Wolfowitz follows:]

 Prepared Statement of Hon. Paul Wolfowitz, Deputy Secretary of Defense

    Mr. Chairman and distinguished Members of the Committee: This 
Committee has long provided our country strong leadership and 
bipartisan support, especially now as the United States wages the war 
against terrorism. I appreciate the opportunity to discuss with you 
today the Defense Department's perspective on how the campaign in 
Afghanistan to kill, capture and disrupt terrorists has helped us 
protect the American people, and how we are helping the Afghan people 
help themselves to ensure Afghanistan does not once again become a 
terrorist sanctuary.
  i. how the campaign in afghanistan has helped protect the american 
                                 people
    From the beginning of the war on terrorism, President Bush 
emphasized that the United States must use ``every resource at our 
command, every means of diplomacy, every tool of intelligence, every 
instrument of law enforcement, every financial influence and every 
necessary weapon of war, to the destruction and defeat of the global 
terror network.'' Each has a role; each reinforces the others. The 
military is only one of the instruments that we need to wage this war 
on terrorism. The military cannot do its job without the support of 
other elements, particularly intelligence, and its role is frequently 
to support the efforts of those other instruments of national power.
    This hearing is focused--and appropriately so--on Afghanistan and 
our military effort there, but it's important to emphasize, as we have 
from the beginning, that this campaign is not about a single country or 
a single terrorist network. Al-Qaeda alone is spread throughout the 
world; it is a network. A network, by its very nature, is based on the 
idea that should one node be eliminated, the network can still continue 
to function.
    Well before September 11, 2001, al-Qaeda had burrowed into some 60 
nations, including the United States and Germany, France and Morocco, 
Saudi Arabia and the Philippines. It had critical nodes in Hamburg, 
Germany and Jacksonville, Florida as well as Afghanistan. The pilots 
who flew the suicide attacks were not trained in Afghanistan; many got 
their training in the United States.
    Afghanistan was an important node in the network, but by its nature 
a network does not have a headquarters. So, while we focus on 
Afghanistan today, we must understand that Afghanistan is only one node 
of this terrorist network. The very name of this organization, al-
Qaeda, which means ``base'' in Arabic, indicates that the entire 
organization is the base of terrorist operations. It is spread 
throughout the world and it needs to be eliminated, root and branch.
    In Afghanistan, where al-Qaeda's malignant plots and plans 
flourished under the protection of the tyrannical and corrupt Taliban, 
America's armed forces went to work to root out both. Our intent, as 
Secretary Rumsfeld said, was to deprive the terrorists of a sanctuary 
in Afghanistan where they could safely plan, train and organize--not 
only to capture and kill terrorists, but to drain the swamp in which 
they breed. Over the last eight months, with our coalition partners, we 
have defeated a vicious and repressive regime that gave refuge to evil. 
We have killed or captured many of its ringleaders. And we have others 
on the run, where they are more vulnerable.
    Even in Afghanistan, our work is far from complete, although we are 
encouraged by the many truly remarkable aspects of the campaign to 
date.
    Our military campaign in Afghanistan has had some striking 
features, some surprising, others less so. Not surprisingly, we have 
seen America's Armed Forces conduct their operations with great bravery 
and skill, as we saw at Mazar-e-sharif, Tora Bora and in Operations 
Anaconda and Mountain Lion. What may have been a surprise to some was 
the remarkable speed with which military plans were put together, the 
swift success of the military operations--in weeks rather than months, 
and with relatively few troops on the ground. On September 11th, there 
simply was no war plan on the shelf for Afghanistan. General Franks was 
starting from scratch on September 20 when he received the order to 
begin planning, but less than three weeks later, on October 7th, we 
commenced the military operations. And less than two weeks after that, 
troops were operating on the ground. In many ways, it was a remarkable 
feat of logistical and operational agility.
    Another element of our success, which was undoubtedly a surprise to 
the terrorists and barely noticed by many others, was something that 
did not happen, something that calls to mind Sherlock Holmes' famous 
observation about the dog that didn't bark. We did not become bogged 
down in a quagmire--unlike the British in the 19th century and the 
Soviets in the 20th century. Nations that arrive in Afghanistan with 
massive armies tend to be treated as invaders, and they regret it. 
Mindful of that history, General Franks deliberately and carefully kept 
our footprint small to avoid just such a predicament. On balance, our 
partnership with indigenous forces has been very positive.
    From the beginning of the war on terrorism, we have stressed the 
importance of understanding the nature of our enemy as a world-wide 
network. Al-Qaeda is not a snake that can be killed by lopping off its 
head. It is more analogous to a disease that has infected many parts of 
a healthy body. There is no one single solution. You can't simply cut 
out one infected area and declare victory, but success in one area can 
lead to success in other areas as well. The bottom line, as President 
Bush and Secretary Rumsfeld have repeatedly cautioned, is that this 
campaign will be a long and difficult one.
    Coalition forces have eliminated the secure operating environment 
that al-Qaeda enjoyed in Afghanistan and degraded cohesion of the 
worldwide network. Well over 500 enemy--including somewhat less than 
half of the top 30 leaders--have been killed or captured--as a result 
of operations in Afghanistan and are currently held in Guantanamo or in 
Afghanistan. Equally important, if not more so, the world-wide efforts 
of our law enforcement and intelligence agencies, in cooperation with 
more than 90 countries, have resulted in the arrest of some 2,400 
individuals.
    Our military success in Afghanistan has contributed to that success 
by encouraging others to cooperate. Our efforts in Afghanistan have 
also helped law enforcement actions more directly. Abu Zubayda, one of 
bin Laden's key lieutenants, driven out of his sanctuary in Afghanistan 
and was captured last March; his partial cooperation in turn 
contributed to the detention of Jose Padilla, who came into the United 
States with the intention of planning and coordinating terrorist 
attacks. A Moroccan detainee in Guantanamo told of three Saudis 
planning terrorist acts in Morocco, all of whom were subsequently 
arrested, including one top al-Qaeda operative. In December, the 
discovery of a videotape in a safe house in Afghanistan led to the 
arrest of an al-Qaeda cell in Singapore that was planning to attack a 
U.S. aircraft carrier and U.S. personnel in that country.
    President Musharraf's leadership has made Pakistan a much less 
friendly environment for Taliban and al-Qaeda. Since last fall, the 
U.S. has sent the government of Pakistan about 1,500 requests for 
assistance on terrorist suspects. They have responded to most of them 
and continue to work on others. In the course of numerous raids on 
foreign terrorist suspects, some 370 arrests have been made.
    These developments are encouraging. However, it is important to 
remember that al-Qaeda is still dangerous and active. This network 
still poses threats that should not be underestimated. However, when 
the network as a whole is under pressure and on the run, it becomes 
harder for them to carry out their evil plans and more likely that they 
will make mistakes that permit us to capture more of them.
               ii. helping to build a stable afghanistan
    While our primary mission in Afghanistan has been to kill or 
capture terrorists who threaten the United States or those who have 
harbored them, it is also important to help the Afghans establish long-
term stability in that country, so that Afghanistan does not once again 
become an outlaw country that provides sanctuary for terrorists. While 
the success of those efforts will depend most of all on the Afghans 
themselves, the United States and its coalition partners have a 
critical role to play in achieving that goal. In shaping that role, as 
in shaping the military campaign itself, we have been very mindful of 
the historical Afghan animosity to foreign armies and foreign 
occupiers.
    We have always viewed our mission in Afghanistan as one of 
liberation, not one of occupation. So with this in mind, we have 
tackled the challenge of striking the balance between keeping 
Afghanistan from reverting back to a terrorist sanctuary, and keeping 
our footprint small. Afghans are an independent, proud people. For that 
reason, we have emphasized from the beginning that we intend to 
minimize the number of troops there, and to focus instead on helping 
the Afghan people to help themselves in their journey to representative 
self-governance.
    We have made it clear, and we need to continue to do so: we have no 
intent of ``colonizing'' Afghanistan. We have been careful, through our 
actions and through our words, to avoid creating the expectation that 
the United States is going to solve all of the Afghanistan's problems. 
We have made a determined effort not to take sides in Afghanistan's 
internal politics. In fact, we have seen that Afghans are good at 
solving problems when they must; and we must let them deal with as many 
as they can.
    If a representative government is to take hold, Afghans themselves 
are the only ones who can make self-government a reality. President 
Bush has said that the United States does not intend to create the 
future government of Afghanistan. ``It is up to the Afghans 
themselves,'' he said, ``to determine their future.'' As they do, the 
United States and our allies will continue to support the new 
Transitional Authority and the people of Afghanistan. Their success 
will contribute, not only to the long-term stability of Afghanistan, 
but to the peace and security of the world at large.
    There are positive signs that the Afghans are making progress. Just 
last week, the Afghan people made a significant step forward when more 
than 1,500 delegates from all 32 provinces and ethnic backgrounds came 
together under one roof. When this traditional loya jirga, or Grand 
Council, elected Hamid Karzai president of the new two-year 
transitional government based on Western-style ideas of control and 
accountability. A Karzai senior advisor captured how extraordinary was 
this first step, saying that, for the first time in 23 years, the 
people of Afghanistan are acquiring a voice.
    Along with self-government must come self-sufficiency in terms of 
Afghanistan's security. That task is made more challenging by the 
formidable geography of Afghanistan. It is a country roughly the size 
of Texas, with peaks in the Hindu Kush (or ``Hindu Killer'') Range that 
reach some 24,000 feet--ten thousand feet higher than the highest of 
the Rockies. The sheer size and unforgiving terrain of the country has 
been a major factor in the planning of our military operations and 
remains a key factor in planning long-term security arrangements.
    Encouragingly, the situation is becoming more stable. Out of 32 
provinces in Afghanistan, our forces have experienced harassment 
attacks mainly in five provinces, in the Taliban heartland of southern 
and eastern Afghanistan. The Taliban have so far failed to mount their 
often predicted spring offensive. The loya jirga convened with no 
serious security incidents--despite numerous threats--and clashes among 
militia leaders have been limited.
    The Taliban regime collapsed quickly with no successor. Not 
surprisingly, criminal activity revived faster than police forces could 
be created. This activity tends to be localized along routes through 
which international aid flows: from the North and from Pakistan--
incidentally, traditional areas for banditry.
    Afghanistan's lack of infrastructure is another hindrance, not only 
to maintaining security, but also to distributing humanitarian aid. 
From the beginning, humanitarian operations were a key part of our 
military operations--a concerted effort to reverse the desperate 
conditions created by the Taliban regime. Just one week before 
September 11th, the U.N. warned that 5.5 million Afghans, surviving on 
cattle feed, grass and insects, were facing death without immediate 
help. The defeat of the Taliban and the ending of civil war conditions 
have brought food to more than five million people who were facing 
famine last fall.
    Even before last September, the United States was the largest 
contributor of humanitarian aid to Afghanistan. When military 
operations began last October, those efforts were stepped up, and, from 
the beginning, humanitarian missions were an integral part of our 
military missions. Today, the picture is vastly different. Easing the 
plight of widespread starvation was a humanitarian duty before the war. 
Today it is one of the keys to bolstering political and civil 
stability.
    Coalition partners are also contributing to stability through their 
humanitarian work. It is especially worth noting that Jordanian 
personnel have been running a field hospital that, to date, has treated 
77,000 Afghan civilians. The Spanish and others have also provided 
assistance through their military hospitals. The Indians have provided 
a contingent of military medical personnel.
    The improvement in the situation is demonstrated by the fact that 
people are voting with their feet. In just the first five months of the 
year, 1.2 million refugees are recorded as having returned to 
Afghanistan already, which was the UN's projection for all of 2002. The 
UN has now doubled the target to two million.
    One crucial factor in the success of a representative government in 
Afghanistan is, first and foremost, a stable and secure environment in 
which it can gain a firm hold and ultimately flourish. The U.S. is 
committed to working with the Afghan Transitional Authority and the 
international community to find effective solutions to the remaining 
challenges to Afghanistan's security.
    One of the most important pieces is training the Afghan army. At 
the beginning of May, U.S. Army instructors took on the task of helping 
build an Afghan national army, by initiating the training of the 
initial group of Afghan recruits for the new Afghan National Army 
(ANA). Coalition partners are assisting in this effort. France has 
already begun training a battalion, and other countries, including the 
U.K., Turkey, Bulgaria, Poland, Korea, India, and Romania, are 
assisting with personnel or funding or equipment. In the process, we 
are also ``training the trainers'' so that the process can become self-
sustaining.
    To further enhance regional stability, the 18-nation International 
Security Assistance Force (ISAF) has been helping to stabilize the 
situation in the capital city of Kabul since January. The British did a 
splendid job leading that effort in its first six months, and we expect 
the same from our Turkish allies who have now taken over the lead.
    Last month, the United Nations Security Council extended ISAF's 
mandate in Kabul until the end of the year. ISAF forces helped train 
the Afghan National Guard to protect Kabul during the loya jirga, which 
was held without incident. Other important efforts to provide a more 
secure environment include the German-led police training program and 
British counter drug operations.
    However, the most important instrument that the Afghan Authority 
and we have to establish a stable security situation is the leverage 
provided by economic assistance. It is in our interests to provide such 
assistance, and to help Afghans rebuild their country after almost a 
quarter century of war so it will not again become a haven for 
terrorists.
    The leadership provided by the State Department as described by 
Secretary Armitage, has been key to that effort. Particularly important 
was the organization of the Tokyo Donors Conference that Secretary 
Armitage has described.
    Our troops on the ground are also making a direct contribution to 
economic assistance, implementing humanitarian projects across 
Afghanistan that include repairing hospitals, digging wells, and 
repairing irrigation canals. We repaired or built 48 schools in eight 
different regions of Afghanistan. And for over 30,000 children for whom 
the sound of gunfire was a natural part of life, school is open, 
certainly one of the most far-reaching ways we have helped shape their 
future. In Herat, with just a few U.S. personnel, a U.S. Civil Affairs 
project, using local labor, de-silted over 250 kilometers of irrigation 
canals, allowing thousands of farm families to do their spring 
planting. The Department is allotting $10 million dollars for more than 
75 such projects, anticipated to continue through the next 12 to 18 
months. These activities have been coordinated with civilian relief 
organizations and have already begun to positively impact the lives of 
many Afghans.
    In support of U.S. reconstruction efforts in Afghanistan, CENTCOM 
is also executing a plan to co-locate personnel from the U.S. Agency 
for International Development and the State Department with our special 
forces and civil affairs teams that are operating throughout 
Afghanistan. This will allow USAID's people to get out beyond Kabul and 
better monitor U.S. assistance, while also providing them some 
protection in what remains an insecure environment.
    CENTCOM's humanitarian efforts have been undertaken to reduce the 
suffering of the Afghan people, and in the process, have helped build 
the conditions for a stable peace--an outgrowth of health, food, 
educational, and economic security. The. U.S. military is proud of its 
contribution to the important efforts of USAID, the U.S. Department of 
State, the U.N. and other international agencies and non-government 
organizations to provide a better life and a better future for the 
people of Afghanistan.
                               conclusion
    Along with the many other law-enforcement, diplomatic, financial 
and intelligence efforts now underway, the campaign in Afghanistan has 
contributed to the disruption of the global terror network in tangible 
and far-reaching ways. But, our task extends well beyond Afghanistan 
and will be a long and difficult one. The stakes are enormous.
    As President Bush said, speaking to cadets at West Point two weeks 
ago, ``we have our best chance since the rise of the nation state in 
the 17th century to build a world where the great powers compete in 
peace instead of prepare for war.'' We can do this is not by imposing 
our own model of human progress on other nations of the world. But, as 
he said, we can support this effort ``when we reward governments that 
make the right choices for their own people. In our development aid, in 
our diplomatic efforts, in our international broadcasting, and in our 
educational assistance, the United States will promote moderation and 
tolerance and human rights. And we will defend the peace that makes all 
progress possible.''
    In Afghanistan today, we see a democratic spirit rising from the 
remnants of a once-failed state that is trying to defy the ravages of 
decades of war and misrule. Despite a beginning that will, at times, be 
rocky and no doubt suffer some setbacks, the Afghan people are hopeful 
for a new tomorrow--hopeful they, too, can have a chance at peace 
instead of war. We remain committed to doing our part to help them on 
their journey. And we want history ultimately to judge us as having 
been dedicated to liberation, not occupation. We appreciate this 
Committee's continued leadership and guidance in these ongoing efforts.

    The Chairman. Thank you very much, Mr. Secretary.
    We will take 7-minute rounds so everybody gets in, and then 
if you have time, we will try for a second round.
    Let me begin by saying to you both that, speaking for 
myself, I think it is a remarkable military undertaking. Having 
spent 4 or 5 days down on the ground, it was impressive. It 
continues to be impressive, and I think, notwithstanding the 
fact that it is going to be fairly easy to Monday morning 
quarterback everything about every operation, I think we should 
all be very proud of what you have put together, and what our 
fighting women and men did.
    I must tell you, I have had this conversation with 
Secretary Armitage. I wish every American could see those young 
women and men. I mean they are incredible and will make 
everybody proud.
    But what I want to talk about is not to second-guess 
anything we have done so far, I want to figure out what we do 
from here. Would one of you, or both of you--I will just ask a 
generic question, rather than the finely tuned questions my 
staff have developed here, and that is: Explain to me what the 
role is of the warlords. In Mazar, Dostam is obviously the guy 
in charge, but there is a power struggle going on up there. In 
Herat, there is--obviously, you have a guy named Ismail Khan, 
who is a tough actor, and there seems to be some more to that. 
I am going to put a map up here, in the absence of my ranking 
member. This is too hard to see from here, but these various 
indications show armed clashes, attacks against minorities, 
attacks against refugees, attacks and intimidation of loya 
jirga candidates, and attacks and intimidation of women, and 
attacks on international humanitarian NGOs.
    Now, over in Iraq, there is not a lot happening there, 
which is good, on the surface; but when I was there, the talk 
was that we were all concerned about each of these warlords 
having their own sponsors. In Herat, we were worried about the 
Iranians and their cooperation with Ismail Khan. I spent hours, 
and hours, and hours, literally, I mean 6 or 7 hours with the 
now officially near-term elected President and his people, 
including Tajiks in the administration.
    The concern was that these warlords all had their own 
agendas, and that although they could maintain peace, there 
would not be any loyalty to and/or allegiance to a central 
government. I thought--and it may be able to be done anyway, I 
thought our purpose here was not only to drain the swamp, but 
as--the Congressional Research Service, we asked them to look 
at this for us, and they came up with the following summary.
    It says, ``U.S.-led efforts to end Afghanistan's role as a 
host for Osama bin Laden and other anti-Western Islamic 
terrorists requires not only a defeat of the Taliban, but also 
the reconstruction of a stable, effective, and ideologically 
moderate Afghan state.''
    Now, do we think that is true? I mean do we think--
obviously, defeating Osama bin Laden and the Taliban, everybody 
agrees on that one, but is it important, is it important that 
we be responsible for, the world community and us included, the 
reconstruction of a stable, effective, ideologically moderate 
Afghan state? Is that part of our charge? If it is, what role 
do these warlords play in bringing that about?
    Mr. Armitage. Mr. Chairman, I will give it a go first. You 
asked at the beginning what is the warlords' agenda. In effect, 
it is the same as it has been in the past. It is to hold on to 
power and be able to collect revenues. They want to be a large 
factor in whatever the future holds for Afghanistan.
    No. 2, you would have a very good sense of this after your 
excellent trip in January out there. The warlords, particularly 
the one to whom you referred, Mr. Dostam, feels that he and 
some of his Tajik colleagues have had the majority of the 
burden in the fighting, and they want the majority of the 
spoils.
    The latter question about is it our role to be involved in 
reconstruction, it seems to me that the President has made the 
decision that it is. He said that we are going to be involved 
for a long time and he made that very clear. We are going to be 
involved for a long time, not just in the sphere, which Paul 
and Secretary Rumsfeld are so responsible for in the military 
sphere, but in the reconstruction, along with the international 
conference.
    I think the fact that it was the United States, which was 
the convener, if you will, of the Tokyo Conference, it 
indicated that we are not going to have a half-measure. We are 
not going to make the mistake we made in 1989 and allow what is 
a very nation-state to backslide into becoming a swamp again.
    Mr. Wolfowitz. I will just add to that, I agree with 
everything that Secretary Armitage said. I think the basic 
strategy here is, first of all, to work with those warlords or 
regional leaders, whatever you prefer to call them, to 
encourage good behavior. I think we have a number of means for 
doing so. Some of them include local diplomacy. We have been 
engaging, particularly up in the Mazar-e-Sharif area, where you 
pointed out there have been some recent incidents, due to 
fighting between two different warlord factions, with our 
Special Forces who have considerable influence to encourage 
better behavior.
    As I mentioned in my testimony, we are arranging to have 
State Department people out in some of the provincial areas 
with our Special Forces, so that they can begin to exercise 
their good offices. I think it underscores the importance of 
economic assistance. Because, as Secretary Armitage said, at 
the end of the day, what these people want, among other things 
and perhaps most of all, are money and resources to help their 
people.
    The long term solution is to shift the balance of forces 
between the central government and the regions--training the 
Afghan army is a key element of doing that. Again, I cannot 
emphasize enough how important economic assistance is, because 
the more real resources that flow through Kabul, through the 
Transitional Authority, the more those local leaders have to 
look to Kabul.
    The Chairman. Well, is it not flowing directly, some of it 
directly to these warlords? In other words, one of the things 
we spent a lot of time talking about in Kabul, in Afghanistan, 
and here, with you, with the State Department, with the White 
House, is that Karzai's popularity and support rest on a couple 
of factors.
    One, he is viewed by all the parties--and when I met with 
Kanoni, and all the rest of these guys, they all said, 
basically, ``We are not crazy about the guy, but he is the best 
thing we have to get aid. He is a magnet for us.'' Two, he does 
not have an army. He does not have any guys. He cannot control 
it by himself. No. 3, he is the guy who represents the 
majority, but is going to count us in on the deal.
    So I thought, initially, the notion was that in order to 
give him some heft, we had to make sure that everybody 
understood that they had to go through him to get that road 
built in Herat, go through him to get that school reconstructed 
in Mazar, and as I understand it, that is not--let me just ask 
the question. Is that happening? How much goes directly, so 
that you have a guy like Birkat Khan who seized control of the 
whole province, being the guy who is building the road for the 
folks down the street?
    Mr. Armitage. First of all, Mr. Chairman, these warlords 
have access to their own resources for a lot of different 
reasons, some of them very bad, like drugs, and they can do 
anything with that, such as build roads, or anything else that 
they are able to.
    Our money goes into the central government, and we have 
relatively little, thus far, representation in the far-flung 
locations. This is why I put a lot of stock in what Paul was 
saying, by attaching USAID and State officers to the Special 
Forces units, whether they be in the number of a dozen or 
several dozen in various areas, so they can give us better 
advice on what sort of projects might reasonably be funded out 
of the central government's coffers.
    The Chairman. Well, I will come back to that. My time is 
up.
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman. As both of 
you mentioned, the work of our military has been tremendous, 
and almost semi-miraculous from a standing start, as Secretary 
Wolfowitz said. General Franks only started the planning on 
September 20, that part of the situation was unavoidable, but 
we quickly picked up our pace and succeeded.
    What is occurring now, it seems to me, does not necessarily 
have to be improvised in the same way, but I have a sense that 
it is being improvised. Let me review items that you both have 
discussed as objectives. One is democracy building respect for 
human rights educational opportunities, and economic 
assistance. We hope the latter leads to at least a reasonable 
economy, even if not a vibrant economy, as is often mentioned 
as the goal. It is not clear to me how much of that is 
occurring in Afghanistan; but some may, and probably a lot 
should.
    There must be a security framework around, so that as the 
democracy, the economy, and public diplomacy begin to work, it 
does not fall part at the fringes, outside of Kabul at the 
country's extremities. Likewise, how this fits with what we are 
doing. Do we have a plan or plans for Pakistan? Our commitments 
there are very substantial, or at least have been implied that 
way. Similsrly what are our commitments in Tajikstan, 
Uzbekistan and other countries nearby.
    My hope would be that at some point the administration 
would be able to provide, if not a book, at least a report as 
to how all of this is likely to be achieved over the course of 
an intermediate period of time. What I think we are getting, 
essentially, are reports of very commendable activities, but I 
do not have a confident sense of exactly where all of this 
leads, except that we are hopeful for the best.
    In part, there has to be improvisation. We have the 18 
members of ISAF, and they have their own agendas, although they 
are coincident by and large with ours. We are committed, as 
Secretary Wolfowitz said, not to become bogged down, and there 
is a lot of thoughtfulness about how you do this without 
becoming bogged down. Likewise, how do we run military 
operations, the cleanup situation, or the activities at the 
border, even as we try to establish peace.
    Can either one of you give some idea as to what the 
thinking is in the administration pulling together State, 
Defense, Treasury, et cetera, and in some coherent plan that 
all of us could understand and support give some idea of what 
kind of financial commitments are required, not just for this 
year, but for several years down the trail?
    Mr. Armitage. Senator Lugar, I will commit to sending a 
letter to the committee, outlining just this, but I want to 
respond directly to your question, but it would be necessarily 
a lengthy response, and we'll do it.
    To the extent we have well developed thinking, and I 
appreciate your comments about the need for a little improv 
along the way, security is the overarching necessity. And, 
underneath that, we have agriculture, for the obvious reasons, 
and health, the next two in order of priority, and the reasons 
are quite obvious, because one half of the 26-plus million 
people in Afghanistan have a need either in the health area or 
in the food area. They have malnutrition, et cetera.
    So that gives you a pretty good idea of your next two 
priorities, and after that, education, which is right up next 
to it, and then infrastructure development. That is just sort 
of the priority, as we see it, and we are trying to put our 
money against it.
    Right now, Senator, in answer to your specific comments 
about democracy, human rights, et cetera, we have 21 State 
people at our embassy in Kabul, and seven USAID people, one 
person who covers human rights, and one who covers religious 
freedom and democracy. So I think, given the 10 percent of our 
staffing there, that will give you an idea of the emphasis we 
are putting on it.
    In terms of public diplomacy, I am pleased with our story. 
You are the ultimate judge, and I appreciate your comments 
about Under Secretary Beers, but in the last 4 months, we have 
increased Radio Free Afghanistan broadcasting to 7 hours a day. 
We have Voice of America, up from 2.5 to 6 hours a day. We have 
two transmitters being built, which will provide 24/7 coverage 
for radio, the principle means of communications in 
Afghanistan.
    We have exchange programs, one ongoing now with young 
students, called the Seeds of Peace program, and we have 12 
participants here in the United States, and in August, we will 
have 18 women from the Women in Government group visit. We 
could have had it earlier, but we did not know who was going to 
be in government, and who was going to be around. So now that 
they have had their loya jirga, we are bringing them in August.
    We are dealing in the country with a literacy rate that is 
about 15 percent above the age of 15. So printed materials are 
not a desired medium across the board, unless they are very 
much pictographs. So I think we are alert to the problems of 
public diplomacy. I will send a letter to the committee with 
our full thinking and the numbers we think would be associated 
with this over the next several years, Senator.
    Senator Lugar. Well, that would be very helpful, because 
the letter apparently would be the plan.
    Mr. Armitage. Indeed.
    Senator Lugar It would illustrate the necessary elements 
that are important in all of this, and have money attached to 
it. That is important in giving us some idea of where we are 
headed in all this.
    Having said that, you mentioned you have an employee 
devoted to democracy and one devoted to human rights. Granted, 
the State Department might not have resources for more people 
there, but organizations like the National Endowment for 
Democracy, or others can be engaged. We must utilize all the 
tools at our disposal. It is extremely important, in terms of 
our national security, that Afghanistan be a success, so that 
there is, in the Muslim world, a success?
    In other words, the overall public diplomacy message that 
keeps coming to us is that polls of countries indicate people 
do not like us, and in some cases, that understates it. To what 
extent does success in Afghanistan help turn that around, offer 
a model of a better life for people, that represents our ideals 
and our country?
    Mr. Armitage. Sir, we are very bullish on the National 
Endowment of Democracy, as a general matter. We are going to 
make use of them in many countries around the world. I have 
Ambassador David Johnson with me here today, and he can provide 
the specifics about whatever contracts we may have with them 
right now. I do not know.
    Of the 21 people, as I mentioned, in the embassy now, we 
have two devoted to the issues that you mentioned. We are going 
up to 31 State people over the summer. We are only limited by 
the fact that they are living in trailers, and we have a 
chancery that partly works and partly does not. We do not have 
any living quarters, et cetera.
    The Chairman. Do the toilets flush yet?
    Mr. Armitage. They do, sir. I will not tell the story you 
told us about it.
    The Chairman. No, no, no. I want to make sure--well, do we 
need to provide money so you can build something else? I mean--
--
    Mr. Armitage. We have the money in the supplemental, sir, 
for that, and I am anticipating no problem, other than getting 
the supplemental voted on.
    On the larger question of the necessity of a success, 
particularly in the Muslim world; absolutely, but it is tied, I 
think, to the country you mentioned earlier, Pakistan. I do not 
think we are actually going to have a success, unless we are 
successful in both countries.
    President Karzai has informed us that he is quite convinced 
of the sincerity of President Musharraf, and the fact that 
notwithstanding 10 or 11 years of a failed policy in Pakistan 
regarding support for the Taliban, that right now, Pakistan is 
on the right side of the ledger, President Musharraf is moving, 
I think, quite assiduously against madrasses, making them at 
least registered, if not getting rid of those that are beyond 
the pale. You saw in today's news broadcast that by virtue of 
the fact that he has ordered his soldiers into the heretofore 
forbidden tribal areas, they are suffering casualties very much 
at our behest, but I think the success has to be the success of 
both countries.
    Mr. Wolfowitz. Senator Lugar, if I might just make a point, 
on the security front. We do have a plan to train 14,400 
soldiers for the Afghan army over the next 18 months, and quite 
frankly, we are looking at whether that number might be 
increased. The two biggest issues are recruitment and funding. 
I would appeal once again for congressional action on the State 
Department supplemental, which contains $50 million for 
training and $20 million for peacekeeping operation funds. The 
sooner we get that money, the sooner we will be able to look at 
expanding recruitment.
    Also, in our request for fiscal year 2003, we requested 
$100 million in authority to move DOD funds, if appropriate, 
from other programs or operational funds into this kind of 
training. I would appeal to get--I think it is not so far made 
it through the budget process up here--but I would appeal to 
you to try to consider that, because I think it would give us a 
great deal more flexibility if the opportunities develop to do 
more training.
    Senator Lugar. Thank you for those specific suggestions; we 
appreciate it.
    The Chairman. Senator Boxer has to leave, and Senator 
Nelson has been gracious enough to----
    Senator Boxer. Well, I got here before he did.
    The Chairman. Of course, but I go by the seniority rule; 
but go ahead.
    Senator Boxer. No; I am senior to him.
    The Chairman. I know you are.
    Senator Boxer. So what is the problem?
    The Chairman. No problem.
    Senator Boxer. Thanks.
    The Chairman. I thought I was just being nice here.
    Senator Boxer. Senator, you are always nice.
    Senator Boxer. I just want to say to both of you, thank you 
very much for your focus on this. I could not agree more with 
Senator Lugar, as far as making Afghanistan a success, and it 
is in our hands, and that is the burden of being the leader of 
the free world, and we are, and in this particular case, we 
cannot afford failure. It is not an option, as they say. I also 
wanted to note again the presence of the women's groups who are 
here today, and to thank them from the bottom of my heart.
    Mr. Chairman and our Ranking Member, Senator Lugar, I think 
it is important to note what Bernard Lewis said, who is a great 
historian, and a pretty conservative one at that, and when 
asked by Charlie Rose if he could name the one reason that the 
Muslim countries have not been able to be successful, the 
answer came back without a moment's pause, ``The women. They 
have not allowed the women to be part of the society.'' This 
was quite an eloquent statement, I think, from him.
    So what I want to spend my time doing, and I hope to be 
able to do it on a one-on-one with you, Secretary Wolfowitz, if 
we have a chance, is to plead the case, make the case for 
immediate expansion of the international force. That does not 
mean our troops. It does not mean occupation. Of course, you 
are right on the point, it means protection, and protection is 
not occupation.
    When you have Hamid Karzai asking for this, and when you 
have Dr. Sima Samar, who the President was so gracious to put 
in the gallery, the First Lady's box, during the State of the 
Union Address, asking for this, and when you have the women 
coming to us via these women's organizations, and also in 
person, taking the risks of travel, to tell us this is their 
highest priority, and I would say, Secretary Armitage, you are 
right, they list security first, then they talk about 
education, health, and the rest.
    I just want to put into the record, Mr. Chairman, a couple 
of third party quotes from my position here. The international 
think tank, the International Crisis Group, wrote, ``The 
security situation outside Kabul remains tenuous, and roadside 
banditry and flare-ups of fighting between rival military 
factions have been common. Many unemployed former fighters, 
with weapons and time on their hands, represent a dangerous 
element.'' And they say, ``It is deeply troubling that some 
Afghans are expressing nostalgia for the relative security and 
stability that were present before.''
    I think it is important, because we have to know history, 
that it was this very lack of security that led to the Taliban 
coming into power in the first place. The Taliban first gained 
the support of Pakistan in 1994, when they rescued a 30-truck 
Pakistani convoy that was hijacked by a warlord just south of 
Kandahar. The Taliban gained popularity throughout Afghanistan 
at that time by continuing to eliminate roadblocks that were 
set up by local warlords, where hijackings and extortion were 
common, and we know what happened then. Osama bin Laden was 
given haven, et cetera. None of us wants it to happen. You do 
not. We do not. It cannot happen. But I say that there is this 
lack of security.
    The International Crisis Group has recommended that force 
be increased from its current level of 4,500 to 25,000 troops, 
and other respective organizations, the Stimson Center called 
for 18,000 troops. I guess I am puzzled, because on this issue 
we have been so close together, people from different sides of 
the aisle, why there seems to be this hesitancy when it is not 
going to be American troops. Karzai is asking for it, and we 
know in 2 years, hopefully, the Afghan people can protect 
themselves. This is an interim kind of solution.
    During February and March of 2002, Human Rights Watch 
documented cases of sexual violence against Pushtun women, 
perpetrated by the three main ethnically based parties, and 
then militias in the north. Many women describe how they have 
to fight off attackers, or hide young female relatives out of 
fear of rape. We know Sima Samar herself had threats. She had 
to spend one night at the United Nations guest house. And 
outside of Kabul, it is far worse.
    Reuters reported in April an acid attack on a female 
teacher in Kandahar after handwritten pamphlets were found, 
circulating in the city, warning men against sending their 
daughters to school or their wives to work. I have heard first 
hand from Afghan women, who call my office, who say that 
security is their No. 1 concern.
    So I would say one more thing here. Bernette Rubin, an 
expert on Afghanistan, wrote the following in the New York 
Times, ``Both Afghans and international officials see the 
refusal to expand the international force as the start of 
American disengagement repeating the mistake of the 1990s, 
despite promising to learn from that experience. Providing 
security for rebuilding Afghanistan is now the front line in 
the war against terrorism. Failure here will undermine all 
other commitments, and many fear failure has already started. 
There is still time to prove them wrong.''
    Now, I do not believe that failure has started. I see so 
many wonderful, good things, and when Secretary Armitage talked 
about the loya jirga, and the women's voice, and the fact that 
in this amazing setting, things got accomplished, and got done, 
and Karzai was--these are all wonderful things.
    I am just concerned that for some doctrinaire reason--
occupation, that is not what we are asking for. We are saying, 
protection of the people. It is a short-term thing. I would 
hope we could get past this idea that if we do support a larger 
troop deployment, it is occupation, because I do not see that 
at all. I see it as an interim measure, and I--in the time 
remaining, I wonder if you could comment, is your mind opened 
at all to this?
    Mr. Wolfowitz. First of all, let me say, I agree with a 
great deal of what you said, particularly about the importance 
of women, both in Afghanistan and in the Muslim world, in the 
larger sense. There are a few things that are just factually 
wrong, and it is important to start from the right set of 
facts.
    Whoever referred to the relative stability and security 
that were provided by the Taliban obviously did not read about 
the 5 million people on the verge of starvation, or the civil 
war that was raging in that country.
    Senator Boxer. No, no. You misunderstood. Those were people 
who were telling reporters this. Of course, it is ridiculous, 
but if even some people think that, it is dangerous.
    Secretary Wolfowitz. But there has been a huge improvement 
in the situation. That it is not perfect is not surprising. It 
is a country that has been through 25 years of civil war, and 
it is going to take time. Things are not going to change 
immediately.
    But the other one is, there is no refusal to expand the 
Afghan force, whether it is referring to the Afghan army, where 
I have been saying over and over again, we would like more 
money to be able to expand it faster, or whether it is 
referring to ISAF, where there is absolutely no doctrine. I 
mean, no one is saying that we are opposed to expanding ISAF, 
or opposed to having it play other roles. Our biggest problem 
so far has been sustaining ISAF in its present role.
    One of our big diplomatic challenges of the last few 
months, which we were successful at, was finding someone to 
take over the lead from the British in ISAF. When the Turks 
agreed to take it over, they expressed extreme reluctance to 
take on missions outside of Kabul. That does not mean that we 
are holding a doctrine opposed to looking at other roles, but 
it is important to remember both the magnitude of the problems 
that this government has inherited, and the sheer size and 
unruliness of the country.
    Are there going to be problems? We are going to make 
progress on them, it seems to me, step by step. I think we are 
making steady progress, but one of the reasons why we say it is 
going to be a long road is that there is a lot of work to do. 
But there is no doctrine involved here at all. We are trying to 
do whatever makes sense to stabilize that country.
    Mr. Armitage. Mr. Chairman, if I may.
    The Chairman. Yes.
    Mr. Armitage. You have an exquisite understanding of the 
problems of women in Afghanistan, but I want to get on the 
record about this. Security is the overarching one, but 23 
years of war, the years of Taliban rule, have all brought other 
things to the fore that we have to be attacking simultaneously. 
It is not just a matter of empowerment of women, which is 
important in and of itself. We have an education problem.
    During the Taliban rule, of those eligible for primary 
school, 39 percent of boys went to school, only 3 percent of 
women were enrolled in school. Right now, out of 4.4 million 
primary school-eligible kids, we have over 3 million enrolled, 
so almost 75 percent. Now, women, or girls, lag behind boys, 
but we are well up to the 60 percentile mark of girls going to 
school.
    If you look at the health care area, one in 15 Afghan women 
dies as a result of a pregnancy, or a post-natal problem. That 
compares to one in 3,000 here in the United States. One in four 
kids in Afghanistan die before they are 5 years old. So we have 
a whole bunch of problems to attack at the same time, and not 
just the ISAF ones.
    Senator Boxer. Right. Mr. Chairman, I am going to end here 
and just say this. I sense a little bit of spark of hope there 
when you say there is no doctrinaire approach to this, you are 
going to look at this. So I feel that it is hopeful.
    Let me just say, you cannot go to the doctor, and you 
cannot go to school, indeed, you cannot go out of your house if 
you do not feel safe; so protection, it seems to me, is the key 
here. I hope we will listen more to the voice of the women 
there, because that really is the voice of the people, I think. 
And if we do that, I feel so confident that this will, in fact, 
be the model that Senator Lugar is looking for.
    I thank you for your indulgence, Mr. Chairman.
    The Chairman. Thank you. Let me make sure about, I guess, 
something factual. There is no doctrinaire position, but we 
did--I met with the British one-star who was in charge of that 
operation, and with our military there. We are not opposed to 
expansion of ISAF, but we made clear we would be no part of it; 
is that right?
    Mr. Wolfowitz. The ISAF leadership was held by the British 
and then by the Turks, and we are trying to keep our forces 
focused on their job of finding terrorists and finding Taliban.
    The Chairman. That is not my question, Paul. I know that. 
That is our first job. But did we not--I was told by the Brits 
that we explicitly said we would not be part of an ISAF force, 
period; is that right or wrong?
    Mr. Wolfowitz. And we are not part of ISAF.
    The Chairman. No, not that we ``are not,'' we would not, 
under any circumstances be part of an ISAF force; is that 
correct?
    Mr. Wolfowitz. Well, actually, Secretary Armitage is 
reminding me, we have 36 people in the headquarters helping to 
advise them. There is a very close relationship between ISAF 
and CENTCOM. We provide a lot of the basic support that makes 
them safe and secure. They are really two operations that are 
connected to one another.
    The Chairman. Well, let me say it another way, and you 
sound like your State Department guy now; no offense, Mr. 
Secretary.
    Mr. Armitage. What does the State Department guy sound 
like, Mr. Chairman?
    The Chairman. Not like you.
    Thank, God. I mean thank God, you do not sound like him.
    Let me make sure I understand this. I was told the 
following, with a U.S. colonel standing with me, who was a 
liaison to the ISAF force, and a captain. After a 2-hour brief, 
I was told in February and then again in May, that we said we 
would not be a part of an expansion of ISAF, no U.S. boots 
would be on the ground with an ISAF force, if it expanded.
    Second, I was told by, and I do not want to--I was told by 
ISAF officers that they thought that would be all right, if we 
had made a commitment to be an extraction force, if they 
expanded, or if we were prepared to provide other guarantees of 
participation with them. As the British one-star, whose name 
escapes me now, said, ``Senator, how long do you think my 
Parliament will let me stay here, absent your full 
participation with us?''
    I then met with Mr. Brohimi, who indicated that the Turks 
had told him that they were looking forward to this command, as 
long as the ``big dog'' was with them--us. When the President 
stated, as I thought I heard him say, we would not be part of 
ISAF, the Secretary of Defense said, I thought, I stand to be 
corrected, we would not be part of ISAF.
    It is not at all surprising to me that the little dog said, 
``Well, wait a minute. We are not interested in expanding.'' So 
I am trying to get that connection. Did we or did we not say we 
would be part of ISAF, if it expanded? The way I got it was 
basically, ``If you guys want to expand, you go ahead, but do 
not count us in on the deal.''
    If that is what we said, there is no question no one is 
going to expand ISAF. I am trying to get a sense here of what 
the real story is.
    Mr. Wolfowitz. Senator, we have been crucial to making that 
operation work. The British were in at the beginning. They 
stayed for 6 months. They did not leave because we were not 
participating. They left because they could not sustain it 
longer than 6 months, just as they cannot sustain some of their 
operations on the other side with our coalition forces.
    Our people have important work to do that only American 
forces can do, or a few allies in small numbers, and that is 
rooting out terrorists and capturing them. It is difficult 
work, and it is work that is uniquely suited to the U.S. 
military. As you mentioned, the Turks said they would not come 
in without the ``big dog'' around. We gave them the assurances 
they needed to come in, and we will give whatever assurances, 
if those are needed, for other countries that want to 
participate.
    Our biggest problem to date has been that even the 
countries that started out there, like the U.K., cannot sustain 
those commitments for logistical or other reasons, and there is 
not a huge number of countries signing up to volunteer.
    The Chairman. I apologize to my colleague for interrupting.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you, and I appreciate 
you asking the question, because I think we could probably take 
that down two or three more levels, and maybe some of our 
colleagues will do that, and if I have time, I will come back 
to that.
    Gentlemen, thank you both. As always, we are grateful for 
your leadership.
    Secretary Armitage, you mentioned that you believe the 
success in Afghanistan and Pakistan was tied together. I assume 
what you were referring to was our success in the overall 
region of our policies. My question is this: Does the 
administration have an integration of policies that, in fact, 
builds on your observation that you just shared with us a few 
minutes ago, that would, in fact, enlarge just the Afghanistan/
Pakistan relationship?
    For example, do you believe, do you have a policy, and is 
it so integrated, and how are you doing it, that the success, 
and the relationship, and our involvement in Afghanistan and 
Pakistan have an impact on, are tied to, and coordinated with 
our policies in the Middle East, Indonesia, other trouble spots 
in the world? Do you believe, as we reverse the optics here, 
which has been mentioned this morning, Senator Lugar talked 
about it, why is it people seem not to care for us, some 
people?
    Do we have an integrated policy that reverses those optics 
to say the Muslim world is looking at us, or the Arab world, or 
any world, through their optics, not America's? Your comment 
led me to believe, and I want you to respond to this, that, in 
fact, the administration does have a policy to understand that 
these areas are all linked together, Iran, Iraq, that you 
cannot, in fact, deal in this universe without having some 
certainly spillover, symbolism, words, deeds, actions, that, if 
you do one here in Afghanistan or Pakistan, that it is tied, in 
fact, to how the world sees us and our actions in the Middle 
East, or in Indonesia, or anywhere else.
    So I would appreciate it if you could take that a little 
further and explain to me if we have such a policy, and how it 
works.
    Mr. Armitage. Senator Hagel, I think Paul and I would say 
we have an integrated policy and strategy. I think he would be 
a better judge of it, and you can tell us after you have 
examined this. I mentioned two states, but I think you 
immediately could expand it to the Central Asia region, the so-
called front line states in the war on terrorism. We have 
everything from the supplemental to our appearances here in 
front of the committee and other committees. We have made it 
very clear that we see it as a total package.
    I think when you talk about Indonesia and others, it gets 
back to our joy and pleasure with Turkey leading the ISAF, 
because it makes the point, here is a Muslim country that's 
leading, not a foreign occupier trying to put some other 
religion on top of the nation's religion. It was a very 
deliberate choice of ours to go after Turkey, to make the point 
that we are trying to make through public diplomacy, that Paul 
was so eloquent about up there. We do not want to occupy, we 
are not here to change your way of life, other than a few 
items, and that once we have completed our task, we will leave.
    The public diplomacy aspects are, I think, the area where 
it is almost tied together. We are able to make the point in 
the Muslim world, and Indonesia, which you mentioned, is the 
largest Muslim country in the world, that we are not opposed to 
the great religion of Islam. We do this in a number of ways we 
think are integrated.
    It is quite clear that terrorists themselves are not bound 
by any geographic region. We have recently seen al-Qaeda--or 
have reports of al-Qaeda meetings in Indonesia. Malaysia has 
accomplished, I think, a magnificent endeavor on the arrest of 
the 15 terrorists, along with Singapore, and arrested a bunch 
more. So I think we are pretty integrated.
    We are not as far along in our public diplomacy strategy as 
we ought to be, and I am sure Under Secretary Beers was quite 
open about that. But if understanding is the beginning of 
wisdom, we understand that, and then we will go ahead and try 
to get smarter on it.
    Senator Hagel. Paul, would you like to respond to that?
    Mr. Wolfowitz. I agree with everything that Rich just said. 
It is important, the President has said this, not just to kill 
terrorists, but to build a better world beyond this war on 
terrorism. And I think a key part of that is reaching out to 
the Muslim world. My own experience as an American Ambassador 
in Indonesia, with some 200 million Muslims, the largest Muslim 
population of any country of the world, convinces me that the 
great majority of the world's Muslims would like to be part of 
successful, free democratic, prosperous societies, those that 
embody what might be called Western values, but that are, in 
fact, universal values.
    I think whoever made the point earlier, that success in 
Afghanistan can be a useful model, I think was on the right 
track. I think success in moderate countries, like Turkey or 
Indonesia, can contribute to a larger dynamic, but we need to 
work on the positive side of this as well as the more negative 
side of fighting terrorists.
    Senator Hagel. A followup question to that point. Is it 
just our interpretation or understanding, as you just said has 
been said here, that the role model for Muslim countries really 
would be Turkey, for other nations? Is that not the designation 
of the other Muslims/Arabs to decide, rather than for us to 
decide for them, ``Now, you want to be like Turkey?''
    I have heard from other Arabs/Muslims from around the world 
that Turkey is not necessarily the secular country that many 
Muslims would emulate. I happen to be a great supporter of 
Turkey. My bigger question is: Are we making these 
determinations through our optics, or trying to understand the 
optics of the others, how they see it, and not just how the 
United States sees it?
    Mr. Wolfowitz. I think those lines I quoted from the 
President indicate it is up to people to choose their own 
futures. I think where they are going on paths that are 
embracing democracy and freedom, then it is in our interest to 
support them. It is their decision, if they are Muslims, to 
decide what they think Muslim values are.
    My comment about Turkey, my comment about Indonesia--they 
are very different countries, by the way. The Indonesians would 
emphatically reject the idea that it is a secular country, but 
it recognizes five different religions, not just a single one.
    Senator Boxer referred to Bernard Lewis--many years ago, he 
came to visit me in Indonesia when I was Ambassador. We had a 
long discussion late one evening with a group of some dozen 
Indonesian Muslim intellectuals. At the end of it, he said, 
``You are Indonesians. You are Indonesian Muslims. You have to 
decide for yourselves the place of religion in society. But 
after what I have heard this evening, I hope someday you will 
send missionaries to other Muslim countries.''
    There are things that people have to decide for themselves, 
but I think what we can decide for ourselves is that those 
countries that choose to be on the path of democracy, that 
choose to be on the path of freedom, that choose to be on the 
path of economic growth, fueled by private enterprise, those 
are countries that I think represent the future, and a future 
we want to support.
    Mr. Armitage. I think the way that I look at it, Senator, 
is there is nothing necessarily contradictory about Islam and 
democracy, and beyond that, I agree with Paul, that they can 
choose their own brand or form, et cetera, but that is, I 
think, kind of the basic----
    Mr. Wolfowitz. Senator, sometimes people suggest that if 
Islam is a state religion, that somehow that is inconsistent 
with our outlook. I ask people to stop and think how many 
European countries have Christianity as an official state 
religion. There are many ways to pursue paths that represent 
democracy and freedom. There are many different ways, but I 
think we can tell the difference between those who are on that 
path and those who are not.
    Senator Lugar [presiding]. Senator Biden is temporarily out 
of the room, and has asked that I preside temporarily, and in 
that role, I recognize Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Both of you know how personally I am a fan of the job that 
both of you are doing. I think you and your respective two 
bosses are some of the finest appointees in the whole 
administration. I would use this subject of Afghanistan just 
simply to say to Secretary Armitage, as I have already said to 
Secretary Wolfowitz, let us do not make the mistake that we 
made in Iraq when we left the downed pilot, who happens to be 
from Jacksonville, Florida, who was declared dead, Commander 
Scott Speicher.
    We did not go back to get him. There were a series of 
mistakes. Then after a live sighting, his status has been 
changed to MIA, and there is consultation now going on as to 
whether or not his status ought to be changed to POW. But in 
the meantime, a few weeks ago, we have confirmed his 
appointment to captain. I take every opportunity as I can to 
remind you all of this, on behalf of Senator Pat Roberts, 
Senator Bob Smith, and myself. I will be offering an amendment 
to the DOD authorization bill today, again, putting this issue 
front and center.
    Now, what I want to talk about Afghanistan, I would like 
you all to respond, please, is that in my case, having been to 
Afghanistan twice since the first of the year, having talked to 
our troops, having seen that inhospitable kind of environment, 
having been so proud of the phenomenal military success that 
our Nation had at the outset, as summarized by that photograph 
on the front pages of marrying high tech and low tech of the 
special operations troops, on horseback, with the Northern 
Alliance calling in the pinpoint air strikes. We had this 
phenomenal success, to begin with, and then we came to Tora 
Bora, and it looks like that we let the back door stay open so 
that they could get out; and our prime objective of al-Qaeda, 
bin Laden himself, escaped, and part of trying to remedy that 
is us trying to help close that border, or have hot pursuit.
    I have spoken directly with the President of Pakistan about 
that issue, and he has to say one thing publicly, and I 
understand that, but it's just like Bonnie and Clyde in the 
1920s, they would rob a bank, and they would go across the 
state line, and the sheriff that was pursuing them could not go 
after them. He would have to stop at the state line. Well, we 
need to be able to pursue. But there was a lot more involved in 
Tora Bora.
    There were questionable loyalties; why did we, for example, 
go with a guy named Hazret Ali, instead of Ghamsharik, and then 
he hired a guy named Ilyas Knel, and there is some question 
about them actually giving cover to the retreating al-Qaeda, so 
that they got across the border.
    Can you enlighten us, in light of our phenomenal military 
success, how did we goof there? And then further answer the 
question, if you would, I take it that we tried to correct some 
of our mistakes when we went in on the Anaconda mission?
    Mr. Wolfowitz. Senator, as I understand it, there are a 
couple of tactical considerations that have to be kept in mind, 
and then a larger strategic one. From a tactical point of view, 
first of all, it has to be underscored just how quickly 
everything was happening. This operation in Tora Bora took 
place, I think, only 3 weeks after the fall of Mazar-e-Sharif, 
and even less time than that after the fall of Kabul.
    General Franks was assembling what he could assemble very 
quickly. It was his judgment, and the judgment of tactical 
commanders, that to do that operation alone in that incredibly 
difficult terrain would have required a massive highly visible 
buildup, and a major logistic undertaking, which would have 
ensured the departure of many more enemy forces before we even 
arrived.
    Second, and related to that point, is, I would like to go 
back to my satellite photograph of Afghanistan. We are talking 
about an incredible country. You do not seal borders there. It 
is not even clear that if we had had an all-American operation, 
and the time to assemble people, that we would have done a 
better job. It is true, they would not have been bribed, that 
was a problem; but on the other hand, they would not have known 
the terrain as well, they would not have known the local 
people.
    The net effect of that operation was, in fact, the 
capture--both in Afghanistan and Pakistan--and killing of 
several hundred al-Qaeda, so I would not judge it a failure. In 
fact, under the circumstances, the speed at which it was put 
together, I think, is pretty impressive. So when in Anaconda we 
relied more heavily on American and coalition forces, it was 
not because we had, quote, ``learned a lesson,'' but we had 
more capability available.
    I would also think that this discussion and many others 
would benefit from recognizing the strategic point that I made 
in my testimony, which is that we deliberately did not plan an 
operation in Afghanistan to put in 100,000 or 150,0000 American 
troops along the model of the Soviets. I think that is what the 
terrorists expected us to do--they expected us to get bogged 
down, and to have opportunities to kill us in great numbers, 
and for us to make a lot of new enemies in Afghanistan.
    Not everyone that we enlisted at Tora Bora were people we 
wanted to enlist; but on the whole, we have had a good deal of 
success in enlisting local forces to do our work for us, and in 
the process, do some of their own. It is imperfect. I think 
anyone who sets a standard of perfection really does not 
understand anything about the history or the geography of that 
country. Against a reasonable standard, I believe that General 
Franks and his people have been remarkably successful and shown 
remarkably good judgment.
    Senator Nelson. Well, as a matter of fact, in Anaconda, it 
is my understanding that you actually ran a feint of the old 
Soviet model of the frontal attack, and when that was repulsed, 
the al-Qaeda were high-fiving about how they had done it again, 
just like they had done to the Soviets over a decade earlier, 
but then you swooped in on them from the rear, and you are 
certainly to be commended for that.
    Mr. Wolfowitz. It is our military that deserves to be 
commended, but I think they have learned either by studying or 
by intuition a great number of the lessons from the terrible 
experience of the Soviets there; and I think, as you correctly 
point out, it took the terrorists by surprise. I think they 
expected us to repeat some of what they had seen 20 years ago, 
and we did not let them do that.
    Senator Nelson. Did over 1,000 al-Qaeda get away in Tora 
Bora?
    Mr. Wolfowitz. It is very hard to determine numbers. The 
numbers I have seen are less than that. We think hundreds got 
away, but many more hundreds were killed or captured. Even 
those estimates are a bit uncertain, because some of those 
killed people are still buried in the bottom of caves and 
tunnels that we will never find out about.
    Senator Nelson. Did many get away in Anaconda?
    Mr. Wolfowitz. I would like to answer that for the record. 
My impression and recollection from that time--and, again, let 
me start out by saying that there was an awful lot we did not 
know about that terrain and those conditions. Our estimates--
and they are estimates--I believe were much smaller.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Lugar. Thank you, Senator Nelson.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman, and I thank the 
chairman of this committee for holding this timely hearing.
    And I want to thank both these gentlemen, these two 
Secretaries, for their just truly exceptionally, outstanding 
leadership. It has been magnificent listening to you. I 
continue to be impressed with your leadership, in that you have 
an understanding of situations. You are principled, but you are 
also very pragmatic.
    In following up on part of the answer that was to Senator 
Nelson's question, we are running into a lot of history here, 
history and geography, and for everyone, and I am glad to hear 
your positive outlook, and it is good to be optimistic.
    But let us recognize the history of the instability, and 
violence, and the lack of democracy in this country just in the 
last 100 years of Afghanistan. In the last 100 years, they have 
had 12 rulers, most of which ended their terms being 
assassinated, deposed, or exiled.
    I could go through them. You ought to go through them all, 
from 1919, Durani Pashtun, Hadid Bula Khan, assassinated, 
because too much British influence, Amanulah Khan, deposed and 
exiled in 1929 due to a revolt by the Ghilzias, in opposition 
to his modernization ideas; 1929, one that did not even last 1 
year, another, a Tajik overthrown and killed; another one 
assassinated; next one, deposed and exiled; overthrown and 
killed after that; next one, killed in a shoot-out.
    From 1978 to 1979, Hafizullah Amin, overthrown and killed, 
invading Soviet military forces; Karmal, 1986, replaced and 
exiled. Another Pushtun in 1992 overthrown and killed. The 
Mujahadeen retreated to the extreme northeast. And, of course, 
Mullah Omar fled in the face of the United States' attacks and 
bombings, and also attacks by anti-Taliban forces.
    This is what you all are facing, as we are trying to bring 
some stability and concepts of universal freedoms and human 
rights to this country, which has no history of it. In fact, 
when it was ever tried, it ended up being to the detriment, 
extreme detriment of whomever was trying to move it that way.
    Now, we are talking about draining this swamp. The people 
of Afghanistan are fortunate that the good leadership and 
efforts of our military forces have removed from that swamp the 
Taliban forces, their repression and intolerance. What we now 
need to do is fill in that swamp with soil, so that these 
concepts of security, and freedom, and individual liberty can 
take root and grow.
    Now, in doing so, we first have to install security and a 
structure that will endure, so that you can have this concept 
of individual rights, and a concept put into a constitution 
that one's group rights, or ethnic rights, or tribal rights are 
protected, and that individual rights are protected, and also, 
obviously, a constitution.
    Now, how this is going to be formed? I would like to hear 
your views as whether this is a federation or a confederation 
that secures security, No. 1. You talked about agriculture and 
health, economic development, education, and opportunities 
through individual freedom. Some of the more powerful warlords 
have expressed reservations about the loya jirga, and have 
intimated that they would resist any control, centralized 
control, from Kabul. This is not at all surprising, again, 
looking at Afghanistan's history; but it does certainly present 
a problem, as far as having a unified country.
    So what we are going to end up with? And this is my 
concern, and I would like you all to address it, is whether we 
are going to end up with all of these--you will try to get a 
regional force, or a national force, but you may end up with 
regional forces, and you are either going to have this current 
regime being a transitional regime, hopefully, to a pluralistic 
democracy, with respect and protection of individual rights, 
thereby securing all ethnic groups; or you are going to end up 
with a divided country, with the Northern Alliance group, the 
Tajiks, and the Hazaras, and the Uzbeks, and then the southern 
part, generally by Pushtuns, or the third approach is going to 
be a very long-term caretaker ward of the international 
community of obviously all the bordering neighboring countries, 
as well as others, which means a very, very long deployment, 
and probably not very satisfactory.
    Now, where do you see this moving? In the short term, I see 
this as a Balkanized country. How do you see our ability to 
influence people to actually join a national force, as opposed 
to being in a regional, or tribal, or warlord force, and how do 
you see us, as well as our allies, trying to be James Madisons, 
in a different sense, in structuring a constitution that has 
buy-in from all the people, and all the factions, and the 
warlords of Afghanistan?
    Mr. Armitage. Well, Senator, neither Paul or I are people 
who look at the world through rose-colored glasses; and if we 
were, your short history would certainly take care of that. But 
there is one difference, and I will go through it now, and all 
of the 12 leaders who you mentioned.
    First, we are trying to bring about several things at once. 
We are trying to reduce the availability of money to certain 
warlords, the eradication of the poppy and heroin crop, which 
will have, I think, a positive effect on the country. We are 
trying to develop simultaneously a national army, the French 
are training the battalion. We are in the midst of our second 
battalion training, or will be on 1 July, to be a multi-ethnic 
national force. So that is part of it as well.
    I think on the diplomatic side, the one difference from the 
previous 100 years is that, at least for a time, and this is at 
play now, the great powers play the great game as something 
other than zero-sum. That was certainly the case in Petersburg, 
the Bonn agreement, where the Russians, the United States, the 
Iranians, the Pakistanis, all worked positively toward 
Afghanistan, rather than in a more traditional way.
    Now, our job in diplomacy is to try to make sure that 
prevails. Now, there are some bad straws in the wind. The 
Iranians, as the chairman mentioned, are busy in Herat. Thus 
far, the Russians have been pretty good. We think the 
Pakistanis are playing the game straight with us now, but it is 
something that is going to take constant attention. Because if 
we are not successful in keeping this as something other than 
zero-sum, then the Balkanization to which you refer will be a 
fact.
    Now, with regard to the constitution, over the next 18 
months, as the transitional government writes its constitution, 
I do not know what they are going to come up with, but we are 
going to make available to help them groups like the National 
Endowment for Democracy. We have used the Asia Foundation for 
some activities, up through the loya jirga, NGOs such as that, 
to try to give them exposure to the best possible advice; but I 
do not know what they are going to come up with at the end.
    Senator Allen. Well, will we be insisting that, regardless 
of how they form this confederation, or federation, or 
constitution, that, obviously, security matters, but also that 
these universal rights are respected----
    Mr. Wolfowitz. Absolutely, and----
    Senator Allen [continuing]. By law.
    Mr. Wolfowitz [continuing]. I think the two things we do 
not want them, I think your phrase was to become a permanent 
ward of the international community, and we do not want them to 
descend back into the kind of lawlessness and violence that 
made them a sanctuary for terrorists. I do think it is 
important that we help them find their own way, but while the 
history is important, I believe in many places around the 
world, over time, the United States has been able to use its 
influence to work with local people, whether it is Korea, or 
the--I happen to think of Asian examples, because Rich and I 
have worked a lot in Asia. But if you think about Korea, or the 
Philippines, or Taiwan, American influence over a period of 
time has greatly strengthened those people who favor freedom, 
and democracy, and progress over those who do not, and there is 
not an instant fix, especially not for a country with 
Afghanistan's problems.
    I believe whatever fix they come up with is going to 
involve some considerable degree of regional autonomy. We had 
it ourselves, especially in our founding. It does not mean 
lawlessness; but hopefully, even the regional governments will 
begin to be held to higher standards, and standards of how they 
treat their people.
    I would like to repeat again, I do not think it can be said 
often enough, security is not just a matter of guns, it is also 
a matter of money, that when people are rewarded financially 
for good behavior, or have those resources withheld when they 
do not. It is a major instrument in the hands of a central 
government.
    And that is why, at the same time that we in DOD are 
putting a big emphasis on training an Afghan army, we support 
in every way we can the efforts of the State Department and 
Secretary Armitage to raise as much support as we can from the 
international community and the United States to give that 
central authority more leverage over the regions.
    Senator Allen. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. I think it is important to note that those 
three examples you gave, Korea, Philippines, and Taiwan, we 
invested about 50 years, I hope we understand that we are in 
for a long haul, and no one calls for a timetable for 
withdrawal.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman, for holding this 
hearing on building stability and avoiding chaos in 
Afghanistan. It is a tall order, and as Senator Lugar said, it 
has the opportunity to be a model, if we are successful. I 
commend you on the hard work you are doing.
    In reading through both your testimonies, and during the 
hearing thus far, I have not heard one mention of the United 
Nations yet. Have we had a bad experience in our relationship 
with the U.N.? Why has the U.N. not yet been mentioned here in 
our hearing?
    Mr. Armitage. Well, we make great use of the United Nations 
Special Representative, Ambassador Brahimi, who has worked very 
closely with us. Secretary Powell speaks to Kofi Annan, the 
Secretary General, regularly about Afghanistan. So we have not 
had a bad experience.
    We have found them very helpful in the political buildup 
through Bonn, the Petersburg Agreement, and laterally, as we 
went through the loya jirga. But the structures that exist for 
reconstruction, et cetera, are the G-8, the Afghan Support 
Group for Humanitarian Aid, and the Afghan Reconstruction 
Support Group, co-chaired by the United States. So there are a 
bunch of ad hoc groups that are responsible for the money, but 
there is no bad odor associated with the United Nations, quite 
the contrary.
    Senator Chafee. Secretary Wolfowitz.
    Mr. Wolfowitz. I even mentioned them in my testimony. As 
the Secretary of the Army said, Brahimi's role is quite key as 
a coordinator of all international support to the Karzai 
government, and we view him as really crucial in that effort. 
On the military security side, the ISAF operates under U.N. 
Security Council mandate, in fact.
    Senator Chafee. If I could take more of my time.
    The Chairman. Sure.
    Senator Chafee. We have talked about the size of 
Afghanistan, trying to understand how an organization such as 
the Taliban could control such a large amount of territory. 
Senator Lugar noted the miracle of our successful military 
campaign naturally leads one to wonder what happened to the 
Taliban. In your testimony, you say we have arrested 2,500 al-
Qaeda members worldwide. In the worst-case scenario, did the 
enemy just melt into the mountains? Are they currently intact 
in their sanctuaries they might have prepared there? Is that 
still a concern?
    Mr. Wolfowitz. I think they are all over the place. Some of 
them just changed uniforms, and others did not even have to 
change uniforms, because it was the same uniform. They changed 
sides. It was inevitable, as in a country like that, that you 
lose structure. We have tried to focus on those people that we 
really think are hard core. Any number of people, I think, have 
actually come over to the new authorities, which also is a 
warning. They could be rented by a different side under 
different circumstances.
    So you have the combination of people who have been killed 
and captured, some numbers who were still very hostile to us, 
who were in hiding, or in the mountains, and we have had rocket 
attacks, which we assume probably come from people like that, 
but so far, these attacks have been small scale.
    But as I mentioned in my testimony, there has been a fear 
all spring, and predictions from some quarters of our 
intelligence community, that there would be a major Taliban 
offensive. I think they were trying to mount one. They were not 
successful. That does not mean they are not out there, still 
trying.
    I could not agree more strongly with what the chairman 
said. This is a long-term project. There is still a lot of work 
to do, not only in reconstructing a stable Afghanistan for the 
future, but also in clearing out those bad elements that caused 
us so much grief.
    Senator Chafee. You say they might have just changed 
uniforms. Is there also a fear that there are still sanctuaries 
in those very rugged mountains that we saw from satellite 
images?
    Mr. Wolfowitz. I would not call them sanctuaries. I mean, 
if it is large enough to be identifiable as a training area or 
a base of operations, I think we can be pretty sure about 
finding them and going after them; but for individuals to hide 
all over the place is a fairly simple thing. We are 
accomplishing a lot also by keeping them in that condition, as 
opposed to organizing and fighting.
    Senator Chafee. So if they are not in sanctuaries in the 
mountains, are they then still amongst the general population?
    Mr. Wolfowitz. In some numbers, I am sure----
    Senator Chafee. A followup question would be: You talked 
about not being in a quagmire. In Vietnam, one of the problems 
was that our enemy was everywhere. They were simply members of 
the general population. Is that a fear in Afghanistan?
    Mr. Wolfowitz. Not in most parts of the country. As I said 
in my testimony, there are only 5 provinces today where we find 
significant pockets of hostile people, so that tells you that 
the problem is confined geographically. I think it is confined 
in size, but most importantly, regarding the allusion you made 
to Vietnam, these are not, in the old guerrilla phrase, fish 
swimming in a friendly sea.
    I think most of the population is not very friendly to 
them, and one of the ways in which we find their hiding places 
is because they are very frequently turned in by local people, 
and that is a major part of our effort. Sometimes it is 
lubricated with money, but sometimes I think it is simply 
because they earned the hostility of a great many of the local 
populations around the country.
    Mr. Armitage. You will see, Senator Chafee, press reports 
of some arms caches being identified by local populations, too; 
or the coalition forces, or ISAF, and I think this is 
indicative of just what Paul is saying.
    Mr. Wolfowitz. Senator Chafee, I might say, I think your 
questions bring out what a complex environment it is there. And 
I must say that one of the things that was so impressive to me 
and Secretary Rumsfeld in the briefings that we got from our 
Special Forces people who operated there, it was not only the 
extraordinary level of military skill that they display, but 
their sophistication about local customs, and local languages, 
and local politics; and they have to have it, but they seem to 
have it, and they seem to find their way through that 
complexity with a great deal of skill and effectiveness.
    Senator Chafee. Thank you very much for your testimony.
    Mr. Armitage. Thank you.
    Mr. Wolfowitz. Thank you, Senator.
    The Chairman. Mr. Secretary, how many al-Qaeda do you 
estimate are left in Afghanistan or on the border with 
Pakistan?
    Mr. Wolfowitz. I do not know of a reliable estimate. It is 
easier to estimate the numbers that we have captured and killed 
than to know how many are left. I can try to get you a 
classified answer for the record.
    The Chairman. That would be helpful, if you could. Well, I 
will refrain from any more questions. Do you have any 
questions? I know that the Senator from Florida had another 
question. Go ahead and finish.
    Senator Nelson. The last time that I was in Afghanistan, I 
was just struck with the enormity of the task that we have in 
trying to bring about stability there, the lack of 
infrastructure, the lack of law and order. The United States, 
in a heroic effort, not only in our military operations, but 
then in our military operations as an outreach to the 
community, helping them build institutions, you know, it came 
foursquare.
    To me, as we went from Baghram to Kabul, to visit with our 
Ambassador, and they were still trying to de-mine the grounds 
of the U.S. Embassy, and as we proceeded from where we landed 
in the helicopter to the embassy, suddenly someone stopped us 
in the road and said, ``Wait a minute, we just found a mine a 
hundred yards up the road, on the side of the road.'' And they 
blew it up.
    We are in this now so much for the long haul, and yet it is 
so important to us. They had a huge drought there when I was 
there in January----
    Mr. Wolfowitz. Still do.
    Senator Nelson [continuing]. And that is going to make it 
difficult to try to get farmers to grow crops, instead of 
growing poppies, and so forth. Give me some reason to have 
optimism.
    Mr. Armitage. I wish you had not asked the question. You 
can be optimistic, sir, if you stop the car in time.
    Senator Nelson. I am grateful for the little things, Mr. 
Secretary.
    Mr. Armitage. That is a big thing. The point of our program 
is to get people out of the poppy business and get them back in 
the farming business, and we have supplied 7,000 metric tons of 
seed, and 15,000 metric tons of fertilizer, getting ready for 
the fall planting season, which would be realized, of course, 
in the spring.
    At the same time, USAID and the international community are 
trying to put together, again, the infrastructure for the 
delivery of water. The drought has continued and, at least in 
my building, they say now it is a drought of almost biblical 
proportions; but there was a water system that transferred 
water from the mountains, where there were snows, et cetera, at 
one time. We are trying to rebuild that.
    Along with talking people out of growing poppy, there are 
other ways to get them out of the business, and to dissuade 
them from poppy cultivation. Some of it is covert, obviously, 
but part of it is international. We have worked very closely 
with the Russians, who realize they have a huge problem in 
Moscow, because that is where the heroin goes first now, to 
have them do a better job with the border control, and to be 
more of a prosecutorial mind set, in terms of drug flow, and 
this is happening to some extent.
    I do not want you to accuse us of being optimists. We 
realize just what the chairman and others have said, this is a 
long, tough slog, and we have started on the journey, and the 
good news is that the President of the United States has said 
we are in it for the long run. We realize it is not going to be 
a 1, 2, 3-year fix. If you look at 23 years of war and 3\1/2\ 
years now of drought, it gives you an idea of the enormity of 
the task, and the fact that literally a generation is without 
education. So we are going to be at it for a long, long time. 
It is not a matter of optimism or pessimism, I think, Senator, 
it is a matter of just realism, and willingness to put the 
shoulders to the grindstone.
    Mr. Wolfowitz. Senator, on the optimistic side, I am 
impressed by that statistic about the 1.2 million refugees who 
have come home, which was the goal the U.N. had set for the 
entire calendar year, and they reached it in May. I think 
people are voting with their feet, and there is still an 
enormous amount of work to be done, but it is worth remembering 
how far that place has come in a relatively short time.
    Senator Nelson. When Senator Shelby and I were last there, 
we found ourselves in the unusual situation--as we were having 
our luncheon meeting with Chairman Karzai in the old king's 
palace, with the plaster cracking on the ceilings, and so 
forth, we found ourselves in the unusual situation of 
impressing upon him the need for him to be more careful about 
his personal security. We urged the same thing when we met with 
President Musharraf.
    What can you tell me about our attempts there to surround 
him with troops that would be loyal, and to get him to stop 
from wading in the crowds, and that kind of stuff?
    Mr. Wolfowitz. There is not so much I think we would want 
to say here, other than the fact that we have noticed the same 
phenomenon, and we have been involved in some training. It is 
very difficult to persuade natural politicians from wading into 
crowds. We have seen that happen even closer to home. It is a 
natural impulse of a born politician, but we would be more than 
happy to provide on a classified basis just what efforts have 
gone into this, sir.
    Senator Nelson. Well, I figured that Senator Shelby and I 
were instruments to be used by you in trying to convey that 
message when we were meeting with him. This was several months 
ago.
    Let me ask again about how, Secretary Wolfowitz, did we get 
in the situation where we were having to decide on the Tora 
Bora assault between two warlords, one of whom seemed not to 
provide the closure of that rear exit, and what did we learn 
from that, that we can avoid those kind of mistakes in the 
future? Tell me just what you can for the record here, as we 
prepare for the future on trying to go get the No. 1 guy, who 
we still do not have.
    Mr. Wolfowitz. Yes, but I guess do not accept the premise 
that General Franks' people made a mistake. They made judgments 
in circumstances, as I said earlier, of a very rapidly evolving 
tactical situation. They obviously know things now about the 
particular individuals that they did not know at the time; and 
with that knowledge, they would rely on some of them and not 
rely on others.
    But I think the notion that we somehow could have avoided 
relying on local forces is false. If we had not used local 
forces, I think even more people would have gotten away. That 
is certainly General Franks' judgment, and everything that I 
have seen reinforces that.
    If there is a lesson there, it is that you can never have 
enough good intelligence on the people that you are working 
with. You need to learn from experience. We were there 
basically for 3 weeks when all of that happened. I think we 
have a much better read on who we can work with and who we 
cannot work with now; but look, betrayal is part of that 
culture, as well. People fight for one side one day and another 
side the next day.
    Senator Nelson. Mr. Chairman, may I followup with one 
additional comment? I want to commend you all for your success 
in the diffusing the extremely high tensions--they are not 
completely diffused--between India and Pakistan.
    But I bring that up, having been there myself, having gone 
from Islamabad to New Delhi with Senator Shelby, arguing the 
same things that you all have done very successfully recently, 
and I congratulate you on that. But I bring up this issue in 
terms of not only what that would mean to world peace, were 
they to get into an exchange of nukes, but what that would do 
to our effort to go after al-Qaeda. Because I believe that 
porous border of highly mountainous terrain, with Pakistan/
Afghanistan, is where a lot of the al-Qaeda still are; and yet, 
we see the troops at least being threatened to be pulled off of 
there, the Pakistani troops, to the Kashmir border, and, 
therefore, not guarding that rear door. Tell us what you can 
about that.
    Mr. Wolfowitz. You are absolutely right in expressing that 
concern. I would say it is one of several reasons why we in the 
Defense Department were very appreciative of Secretary 
Armitage's diplomatic efforts. If that conflict breaks out into 
war, not only will it be terrible for the people involved, but 
it will be a real setback for our effort to get terrorists in 
some significant numbers, or in these very wild tribal areas of 
Pakistan, where, by the way, the Pakistani Government has never 
exercised a great deal of authority.
    They have made significant efforts over the last few months 
to put more people in there, but some of those people were 
diverted by the building crisis on the Indian border. If it 
were to break out into war, I think it would seriously degrade 
those efforts.
    So far, I must say that the troops that are there seem to 
be doing a very aggressive job of going after al-Qaeda. It is 
wild country, it is difficult country, but I think they are 
making progress. We would like to see that progress continue.
    Mr. Armitage. It is a generally held view, Senator Nelson, 
that nothing would represent success in a greater way for al-
Qaeda than a dandy little war between India and Pakistan. They 
would be the only beneficiary.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Gentlemen, thank you 
very much. We will have a few written questions, if that is OK. 
Let me say in your parting here that I think you have done an 
incredible job. I do think, one area of disagreement, 
personally, is that I think that U.S. leadership is still 
possible to expand ISAF beyond Kabul. I think absent doing 
that, and relying on warlords as much as we do while we are 
trying to set up this interim government, is a judgment call. I 
respect the call, but I think we are making some mistakes.
    Every time I see the President, the first thing he says to 
me, ``Do you have anything to say, except about Afghanistan?'' 
So I am a broken record on this, but I appreciate your answers, 
and I appreciate you making yourself available.
    You are excused, unless you have any closing comment either 
one of you would like to make.
    Mr. Wolfowitz. No. Thank you.
    Mr. Armitage. No, Mr. Chairman. Thank you.
    The Chairman. You guys are like good trial lawyers. Never 
ask a question to which you do not know the answer. Thank you 
both very much.
    We have a second panel, and I would like now, while some 
are leaving the room, Ambassador Peter Tomsen knows the 
political landscape of Afghanistan inside and out. As Special 
Envoy to Afghanistan for the previous President Bush, he dealt 
with many of today's power brokers long before they had any 
real power to broker. He is currently the ambassador-in-
residence at the University of Nebraska at Omaha. It seems to 
me, that in my former capacity as the Chairman of the Judiciary 
Committee, I kept calling people from the University of 
Nebraska at Omaha, and I do not know what the deal is here, but 
it must be a real sanctuary there.
    Senator Hagel. I am a graduate, believe it or not. It 
probably takes that idea out of your mind, but----
    The Chairman. No, no.
    In my mind, that elevates it considerably.
    The thing I know most about Omaha is that it is very close 
to Iowa. It is a long story; it is an inside joke.
    Brigadier General David Grange earned three Silver Stars 
and two Purple Hearts during his service in Vietnam. He has 
served in Delta Force, Ranger, and Special Forces operations 
during his 30-year military career, and as commander of Task 
Force Eagle in Bosnia, he is particularly well equipped to 
comment on U.S. participation in peacekeeping operations.
    Now, I would invite you, Mr. Ambassador, if you have an 
opening statement, and then General Grange, and then we will go 
to questions. And I thank you for your patience.

     STATEMENT OF THE HON. PETER TOMSEN, SPECIAL ENVOY TO 
    AFGHANISTAN (1989-1992), FORMER AMBASSADOR TO ARMENIA, 
   AMBASSADOR-IN-RESIDENCE, UNIVERSITY OF NEBRASKA AT OMAHA, 
                           OMAHA, NE

    Mr. Tomsen. Thank you, Mr. Chairman, and I want to thank 
the panel, too. I would also like to thank the Senate Foreign 
Relations Committee staff, because we meet periodically, and I 
must say that you have a lot of Afghan experts on your staff, 
on both sides of the aisle.
    There is an old American saying that posits, ``The biggest 
enemy of better is best,'' and that applies to Afghanistan. If 
you go for the best, as you, Senator, and others were 
commenting, you are not going to get there. All we can hope for 
is steady, incremental improvement, given the horrendous 
situation after 25 years of war, and the many problems, 
economic, security, et cetera, that rock that country.
    The loya jirga was, in my opinion, a success overall. There 
were setbacks, there were complaints, and you can read about 
them in the New York Times op eds; however, again, ``the 
biggest enemy of better is best.'' Hamid Karzai was selected by 
secret ballot, which he insisted on, by a great majority of the 
delegates. The cabinet that he has represents diversity, the 
different ethnic groups, broadly speaking, in the country. 
Actually, probably not even the Almighty could satisfy all 
Afghan groups that they are fairly represented. But I think 
there is a broad representation of all ethnic and religious 
groups in his cabinet. I think he has done very well. The three 
Vice Presidents represent the main ethnic groups in the 
country, Pushtun, Hazara, and Tajik.
    The challenges of reconstruction now are before us. I wrote 
a May 17 editorial published in the Wall Street Journal on some 
problems in the reconstruction process. Hamid Karzai gave a VOA 
interview yesterday, in which he says, ``Foreign aid continues 
to be a trickle, and now that the loya jirga is finished, we 
have to deliver. Our honeymoon is over,'' is what he told VOA.
    There has been a lot of talk about $4.5 billion going out 
there, but, in fact, as I mentioned in that Wall Street Journal 
editorial, a lot of it is captured and snarled in aid 
bureaucracies, the United Nations, our own, British. It is not 
getting down to the lowest level. In fact, the only 
reconstruction activity that we have seen has been the Special 
Forces civil action teams out in the villages, building wells, 
schools, roads. The money that is for reconstruction, that has 
been promised and appropriated, is not there. The traction is 
not there. Something has to be done.
    The four strategic reconstruction goals are mentioned, I 
will not go into them in my statement, which I would point to. 
The most important by far is the revival and modernization of 
Afghan national self-governing institutions, democratic, 
economic, administrative, and military. There was a lot of--
sort of skeptical comments on Afghan's ability to govern 
themselves in this session, but I would underline that from 
1933 to the Soviet invasion there was stability in Afghanistan, 
there was progress along the democratic path. Unlike South 
Korea, Taiwan, this did not come because of sustained American 
pressure. It came from an Afghan elite in Kabul, including the 
former king, Zahir Shah, who introduced a democratic 
constitution in 1964, and then implemented that democratic 
constitution, including two parliamentary elections, which were 
held in 1965 and 1969.
    It was outside interference by the Soviet Union, primarily 
the KGB operating through Communist parties inside Afghanistan, 
who were situated in the military as well as the civilian side, 
that overthrew this democratic process; but these institutions 
were building in the 1960s and early 1970s. Well, we should go 
back to them. Hamid Karzai's father was Speaker of the 
Parliament during that period.
    Success or failure of the massive historic reconstruction 
process in Afghanistan will depend mainly on implementation of 
this first strategic goal. Revival of Afghanistan's ability to 
govern itself when foreign aid tapers off in 5, 7, or 10 years' 
time.
    Nation building, a la Bosnia, Kosovo, and East Timor, is 
not necessary in Afghanistan. They were never nations. 
Afghanistan has been a nation for 300 years. It was never 
colonized. In the 20th century, it sprouted its own self-
governing institutions. In my opinion, the centerpiece of the 
international community's reconstruction efforts should, 
therefore, be to aid and facilitate the reestablishment of 
Afghanistan's governing institutions, equipping them to operate 
in today's 21st century environment. The U.S.-led coalition and 
the current pro-Western Afghan leaders must succeed in this 
endeavor. The stakes are huge. Capacity-building to fill out 
and render Afghan institutions effective is key. Failure would 
lead to renewed fragmentation and chaos in Afghanistan, wasted 
foreign investment, and the resumed exploitation of Afghan 
territory by terrorists.
    Only an Afghan government, standing once again on its own 
two feet, can keep the peace internally and resume a 
constructive role in the international community. In this 
connection, I urge positive consideration by the Senate for the 
Henry Hyde House bill, the Freedom Support Act, which is 
modeled on the Freedom Support Act for Newly Independent 
States, passed in the early 1990s by Congress. You took the 
initiative; you should take it again. It is going to establish, 
if it is approved, a separate budget, like the Freedom Support 
Act budget.
    It will have a separate budget for Afghanistan. It will not 
be, as has been the case so far, taking money incrementally 
from different pots around the Federal Government, but 
establish structurally a budget, establish the position of 
coordinator, which Rich Armitage first held in the early 1990s 
for the NIS Freedom Support Act budget, and is now ably carried 
out by Bill Taylor, Ambassador Taylor, in the State Department, 
a coordinator to bring together all of the different agencies 
in the U.S. Government in a coordinated way, who are involved 
in Afghanistan, and I believe there are over 20 today.
    Let me just end by commenting that I support the expansion 
of ISAF to regions inside Afghanistan, particularly Mazar-e-
Sharif, Herat, Kandahar, and Jalalabad. I would underscore what 
you said, Mr. Chairman, if you look at that area of Mazar-e-
Sharif, the Tajik commander, Atef Mohammed, and Dostam are at 
each other's throats. Mohakek is a Hazara warlord; he is also 
involved. They have all agreed that they support the deployment 
of an ISAF contingent, and it only has to be a couple hundred 
to Mazar-e-Sharif.
    That would definitely assist stability and security in the 
area, and reconstruction in the area; otherwise, without this 
foreign sort of referee presence, until the central government 
is able to establish the military with a reach across the 
country and security from the center, the fighting in the 
region is going to continue, the attacks on refugees and also 
on women are going to continue, and that applies, to a lesser 
extent, to Kandahar and Jalalabad.
    It would not take much, you are not going to be deploying 
thousands to these different urban centers of Afghanistan. You 
are going to be deploying tens or hundreds, but it would 
accomplish a great deal in bringing security to these areas. 
Thank you, sir.
    [The prepared statement of Ambassador Tomsen follows:]

   Prepared Statement of Hon. Peter Tomsen, Ambassador-in-Residence, 
University of Nebraska at Omaha; former Ambassador and Special Envoy to 
                              Afghanistan

                     american policy on afghanistan
    An old American saying posits: ``the biggest enemy of better is 
best.'' It is worthwhile for Americans to keep this practical guideline 
in mind when evaluating the just-completed Afghan loya jirga. There 
were setbacks, unfulfilled objectives, and many would argue harmful 
decisions at the loya jirga. In general, however, the positive 
outweighed the negative. And, in the months and years ahead, there will 
be plenty of time to shave away the negative.
    The December, 2001 Bonn accords laid out an ambitious roadmap to 
achieve peace, stability, democracy, human and gender rights, and 
reconstruction in Afghanistan. The June, 2002 loya lirga, like the 
June, 2004 parliamentary elections, is a critical milestone to realize 
these goals.
    In Afghan history going back to the eighteenth century, the 
selection of a legitimate Afghan leader during times of trouble has 
been the principal mission of Afghan loya jirgas, with only a few 
exceptions--such as the 1964 loya jirga convened to approve a 
democratic constitution. The just completed Afghan loya jirga 
accomplished that main task--selection of Hamid Karzai to head the 
Afghan transitional regime until the June, 2004 parliamentary 
elections.
    Criticism of the loya jirga by Afghans and non-Afghans has centered 
on non-selection of a mini-legislature called for in the Bonn accords, 
and correcting the imbalance in the cabinet stemming from the Northern 
Alliance's unfortunate unilateral seizure of Kabul last fall.
    Mr. Chairman, each of these criticisms has some validity; however, 
demanding the ``best'' in the current Afghan environment is folly. Not 
even the Almighty could have satisfied all Afghans in the distribution 
of cabinet portfolios.
    Overall, the loya jirga successfully maintained essential progress 
along the Bonn roadmap. The expectation that 1,500 representatives of 
Afghanistan's varied groups and factions could agree on a mini-
legislature in this brief period was, frankly, unrealistic from the 
beginning. The larger (but not majority) Pashtun group can point to 
Pashtun Hamid Karzai at the top of the transitional regime, plus one of 
the three Vice Presidents, Pashtun Abdul Qadir (the brother of renown 
Afghan commander Abdul Haq), as substantial Pashtun representation in 
the Afghan leadership. Pashtun Zahir Shah will play an important 
symbolic role as ``father'' of the nation. Structural ethnic balance at 
senior levels is largely rounded out by a Tajik and Hazara filling the 
other two Vice Presidential posts. Hamid Karzai's twenty-eight member 
cabinet also reflects broad Afghan ethnic-religious balance. A well-
known Afghan woman is Minister for Women's Affairs. The outspoken Sima 
Samar will head the Human Rights Commission.
Challenges of Reconstruction
    There are four strategic reconstruction goals in Afghanistan. The 
goals should be viewed--and implemented--along an integrated path. Each 
goal is linked with the other three.

  <bullet> Revival and modernization of Afghan national self-governing 
        institutions; democratic, economic, administrative and 
        military.

  <bullet> Implementation of ``bottom up'' community-based 
        reconstruction through Community Reconstruction Centers.

  <bullet> Rebuilding Afghanistan's macro-infrastructure, including 
        roads, bridges, agriculture and telecommunications.

  <bullet> Humanitarian relief for endangered sectors of the Afghan 
        population.

    Success or failure of the massive, historic reconstruction process 
in Afghanistan will depend mainly on implementation of the first 
strategic goal: revival of Afghanistan's ability to govern itself when 
foreign aid tapers off in five to ten years time. Nation building a la 
Bosnia, Kosovo and East Timor is not necessary in Afghanistan. 
Afghanistan has been a nation for 300 years. It was never colonized. In 
the 20th century, it sprouted its own self-governing institutions, and 
slowly modernized them during the forty years prior to the Soviet 
invasion.
    The centerpiece of the international community's reconstruction 
effort should therefore be to aid and facilitate the re-establishment 
of Afghanistan's governing institutions, equipping them to operate in 
today's 21st century environment. The U.S.-led coalition and the 
current pro-Western Afghan leaders must succeed in this endeavor. The 
stakes are huge. Capacity-building to fill out and render Afghan 
institutions effective is key. Failure would lead to renewed 
fragmentation and chaos in Afghanistan, wasted foreign aid investment 
and the resumed exploitation of Afghan territory for international 
terrorist and narcotics operations. Only an Afghan government standing 
once again on its own two feet can keep the peace internally and resume 
a constructive role in the international community.
    The Senate's support of the House Henry Hyde bill will give a great 
boost to meeting the reconstruction challenge in Afghanistan. Even 
today, there is no American reconstruction strategy, fund to support 
the strategy, and efficient executive branch machinery to implement the 
strategy.
    When the Soviet Union collapsed in December, 1991, Congress wisely 
established the Freedom Support Act to give sustenance to our political 
rhetoric of support for the transition to free market democracies by 
the Newly Independent States (NIS). Deputy Secretary of State Armitage 
became the first NIS aid coordinator. He and his successors, Ambassador 
Morningstar and Taylor, have extremely effectively piloted Freedom 
Support Act programs. The Senate's support for the Henry Hyde 
initiative will fill the confusing vacuum in the Administration on 
strategy, funding and program implementation for Afghan reconstruction. 
Congress rose to the occasion in the 1990s by passing the Freedom 
Support Act. It is time to take a similar step in 2002 to accomplish 
U.S. interests in Afghanistan.
American Regional Diplomacy
    There is need for a comprehensive U.S. diplomatic policy on 
Afghanistan and the region. American goals of combating terrorism, 
promoting peace, stability, democracy, human and gender rights, and 
fighting narcotics trafficking must have a broader regional scope. We 
need to remember that Afghanistan's horrendous condition has mainly 
been created by outsiders--the 1979 Soviet invasion and subsequent 
eight-year brutal occupation, followed by another invasion by foreign 
Muslim extremists from Pakistan and the Gulf, supporting their own 
Afghan surrogates to reign from Kabul.
    A creative American diplomatic architecture for the region should 
strive for a consensus among the ``outer ring'' of powers surrounding 
Afghanistan to respect Afghanistan's independence, neutrality and 
sovereignty. Such an approach, perhaps modeled on the 1955 Austrian 
State Treaty, could restrain the states in the ``outer ring'' from 
attempting to manipulate Afghanistan to serve their competing strategic 
objectives in the Central-South Asian region.
Afghan Legitimacy
    Mr. Chairman, may I conclude by stressing the significance of 
avoiding ``Mother Hen'' tactics toward Afghan politics. As you know, 
Afghans are a proud, independent people, inured historically to 
resisting outside attempts to dominate Afghanistan. They have recently, 
with our help, thrown off the yoke of first Soviet, then radical 
Muslim, control. We must not establish an American image of just the 
next outsider trying to dictate who rules in Afghanistan. Outside arm-
twisting on behalf of preferred political power arrangements may be 
effective for days or a few months, but it is doomed to failure in the 
long run.
    The overarching intention of the Bonn accords has been to help the 
Afghans to form the legitimate Afghan regime, chosen by Afghans, which 
has been missing for a quarter century. Conflict will continue to tear 
Afghanistan as long as this void in legitimacy exists. American and 
other outsiders can discreetly advise Afghans on how to govern 
themselves. The decision-making in Afghan politics, however, must be, 
and be seen to be, done only by Afghans.

    The Chairman. Thank you very much, Mr. Ambassador. General, 
welcome.

  STATEMENT OF BRIG. GEN. DAVID L. GRANGE, U.S. ARMY (RET.), 
                          CHICAGO, IL

    General Grange. Yes, Mr. Chairman. I appreciate the 
opportunity to share some thoughts today with the committee. I 
have no access to any classified information on this subject, 
and, in fact, I am serving now as a philanthropist for the 
McCormack-Tribune Foundation in Chicago. Any free time I have--
--
    The Chairman. Maybe we can talk after this.
    General Grange. Sir?
    The Chairman. I said, maybe we can talk after this.
    General Grange. Yes; absolutely. But my free time is spent 
really on my John Deere tractor on my farm in Illinois. But I 
would like to speak from experience serving in heavy, light, 
and special operating units in combat and also in peace support 
operations, especially challenges after the main fight, where 
the entry into the country has occurred.
    I believe that you always have to back up and ask, like 
someone said earlier, why are we in Afghanistan? What is the 
purpose of the United States in this commitment? I understand 
that the mission is to disrupt, if not destroy, the al-Qaeda 
terrorist organization, to deny them the sanctuary in 
Afghanistan, and to remove the Taliban from power.
    Our military has removed the Taliban from power. I do not 
believe that we have destroyed, but we have disrupted the al-
Qaeda operations, and we have denied the sanctuary in 
Afghanistan, though it has probably moved to Pakistan.
    But this is only the first phase of what our commitment is 
to Afghanistan. Any military operations consolidation phase or 
a country at war reconstruction phase is the most difficult 
aspect of any operation. If we expect to see some semblance of 
rule of law, democratic government, or a free market economy, 
and an institutional capacity of Afghanistan, though not 
necessarily a replica of the United States of America, we have 
a long way to go.
    I have submitted enclosure one \1\. It is the international 
community's challenge to a peace support operation, and it was 
discussed a little bit by the earlier panel about military 
objectives, and other than military objectives to reach goals 
set by the national command authority. It is something that can 
be discussed later during our questions following this 
testimony; but this chart shows the challenge, and it has to do 
with not just the military, but it has to do with money, it has 
to do with other organizations that have a very big role in 
achieving our goals.
---------------------------------------------------------------------------
    \1\ The enclosure is a chart that can be found on page 52.
---------------------------------------------------------------------------
    If these are the criteria to define winning, and that is 
the democratic society, a free market economy, some type of 
institutional capacity, then we must stay the course and commit 
the time and the resources, and see the mission through. I 
believe that our responsibility is not only to destroy the 
enemy and make Afghanistan safer, but I think we have a 
responsibility to make it better.
    Nothing could be more detrimental to the prestige, to the 
honor, and the credibility of the United States of America than 
not to accomplish what we have set out to achieve. We must 
fulfill what we promised to others. In essence, I believe we 
must walk our talk.
    Our Nation also has the responsibility to our military, and 
I really appreciate the remarks that Senator Nelson mentioned 
earlier about leaving a fallen comrade in the status of a 
prisoner of war, or an MIA. I think that is extremely important 
to our Armed Forces. I do not think that we should ever send 
our Armed Forces into harm's way unless we maintain the will to 
win, and that means to complete the mission.
    It is very important to the American people that those who 
have already given the ultimate sacrifice have not done so in 
vain. What hurts a soldier more than austere conditions, fear, 
loneliness, and even wounds, is the lack of will to follow a 
mission through.
    It took the United States 10 to 12 years to kick-start our 
form of government. We cannot expect Afghanistan, Bosnia, or 
any other country, torn by war, to do so in 1 or 2 years. That 
is why we should never put a time limit on an operation, but 
maintain the resolve for as long as it takes to reach our 
stated objectives. After years of murder, rape, and destruction 
in any country that we have been involved in, to love thy 
neighbor takes time. We Americans are attuned to the 100-yard 
dash, not a marathon, and this particular operation is a long 
run.
    The enemy has a vote when this victory is decisive. We are 
not fighting a nation state in this case. The enemy is a 
terrorist organization. Who decides on surrender? Who decides 
that they are defeated? What are our measures for mission 
accomplishment? A very tough situation.
    This particular fight in Afghanistan to defeat terrorists 
not only sets the example for the world of America's 
determination, and I think Senator Hagel asked this question, 
but it is also critical to the region's stability. What is 
their perception of what we are doing? What happens in 
Afghanistan affects the overall security of southwest Asia. 
This fight is not defined only by Afghanistan's national 
borders. If so, it would be like our fighting in South Vietnam, 
which at times had total disregard for Laos, Cambodia, and 
North Vietnam.
    The enemy does not recognize the borders, but takes 
advantage of the vulnerabilities that these seams offer, and 
continually creates negative influences on our campaign; for 
example, one that was brought up earlier were paramilitary 
operations in Kashmir, to distract our efforts.
    The United States and our coalition have deployed a 
powerful military force in Afghanistan, and power does matter. 
But power is relative to the situation at hand, especially in 
unconventional warfare. Tangible power, bombs, tanks, infantry 
battalions, are easy to quantify, but intangible power is hard 
to quantify, and though relative to this kind of conflict, it 
must be considered. Propaganda, disinformation, black market 
payroll, and the manipulation of religious beliefs are as 
powerful as any B-52.
    We must be able to apply various means of power, and not 
only the physical and organizational domains of an operation, 
but particularly in the moral domain, where we achieve the most 
effect.
    In your packet, I have enclosure two, and it talks about 
conflict resolution and the time it takes to meet an objective, 
operating in the physical, organizational, and moral domain. 
The biggest payback is in the moral domain, but the experts 
operate in all three domains to achieve their objectives.
    It is imperative that the coalition can strike hard with 
one hand and provide humanitarian assistance with the other. 
The people of Afghanistan, like any other people around the 
world, respect strength, magnified by compassion. Our mission 
in Afghanistan requires a robust civil affairs, public affairs, 
psychological operations, and engineering effort to provide the 
humanitarian assistance, and development projects critical to 
reconstruction, backed up by a viable strike force.
    Operation Anaconda, I believe, got the attention of the 
enemy. The Taliban and the al-Qaeda spent a lot of time 
preparing a firesack to trap and destroy coalition forces in 
the valley. They wanted to bloody Americans, to challenge 
America's resolve to continue this fight. They lost the battle. 
They now have reassessed their strategy and are now lying low, 
conducting reconnaissance and small-scale guerrilla operations, 
influencing the peoples of remote villages, and waiting us out. 
In their minds, we will not stay the course.
    It is imperative that we sustain our efforts. In fact, I 
recommend we increase them if we expect to win. It can be done, 
I believe, without the appearance of an occupation force. 
Aggressive coalition, and eventually combined with Afghanistan 
army patrolling must continue to maintain pressure on the 
enemy, especially in the eastern provinces. Our forces and 
efforts must adapt to the various regions of Afghanistan, with 
a holistic strategy using military, other government agencies, 
non-governmental agencies in a synchronized campaign. We have 
had a hard time doing that in the past.
    A robust, credible Afghanistan army cannot be built without 
money, quality weapons, a multi-ethnic force mix, a sense of 
pride of being a part of that army, and a sense of purpose in 
support of the country. The army should have a fair 
representation of not only Tajiks and Panjshiris, but also 
Pushtuns. The benefits of being a part of this army must 
outweigh anything that the warlords, terrorists, or black 
marketeers can offer them. Our advisory efforts to this army 
will be critical to success.
    The international security force, along with the Afghan 
army, eventually must operate outside of Kabul. They have no 
credibility unless they do. To avoid confrontation, though 
there are always risks involved in this strategy; this force 
must work as combined patrols with the regional warlord 
militias. Regional coalition liaison teams are critical to the 
success of these combined patrols, and that includes Americans.
    We must recognize the warlords have special powers, and the 
Karzai government, as well as the coalition leaders, must 
establish a cooperative relationship with them. It is like 
dealing with any faction leaders in any other conflict we have 
been involved in. Fighting them will just lead to disaster. The 
warlords' militia should be made an auxiliary part of the 
national army, paid to protect regional infrastructure, with 
emphasis on ``we are all Afghans.''
    Without this cooperation, the road networks and bridges 
will never truly be developed and open for trade, and the 
establishment of a free market economy. Humanitarian relief aid 
will never get to remote sites, and water wells, schools, 
hospitals, and communication infrastructure will never be 
constructed, critical to the refugee return.
    Right now, the lifeline for coalition forces is the air 
bridge. This cannot be sustained forever. As you all know, the 
wings are being flown off our aircraft. Ground lines of 
communication must be opened to continue military and non-
military efforts in Afghanistan. The construction of major 
public works should not be done with a Brown and Root model, 
though I must admit, I have had great success with their 
support in other operations. It is very effective, but it does 
not facilitate the commitment of the Afghanistan people.
    Reconstruction projects are a great opportunity, providing 
work and a sense of pride to the local communities. What we 
want is an employed work force, not trigger pullers carrying 
AK-47s. A series of regional arsenals should be established to 
contain heavy weapons, still belonging to the regional 
warlords, as I think it would be a mistake to try to take them 
away, and maintained and inspected by the national government 
and coalition advisors. An inspection program of these arsenals 
among warlords, supervised by the national army, should be 
instituted.
    The U.S. military contribution to a sustained campaign to 
bring a chance of lasting peace to Afghanistan and the region 
should be as follows, and this is my summary: special operating 
teams, consisting of civil affairs, public affairs, 
psychological warfare, and engineers should be collocated with 
regional warlords, and tribal chiefs at key villages and nodes.
    Military advisors should be integrated throughout the 
Afghanistan army. Rapid reaction force to respond and support 
the coalition/national/Afghan army should be established and on 
hand. At least a combined arms brigade, American, to continue 
search-and-destroy operations against al-Qaeda and Taliban 
remnant forces should remain a robust infrastructure and 
institution support elements, i.e., civil affairs, public 
affairs, engineers, medical, communications, et cetera, need to 
be there to enhance nonmilitary reconstruction efforts.
    In closing, our Nation has committed itself to the 
accomplishment of this mission. We have spent considerable 
resources to date, and we have sacrificed human life. We are 
obligated to stay the course and win this fight. Thank you.
    [The prepared statement of General Grange follows:]

   Prepared Statement of Brig. Gen. David L. Grange, U.S. Army (Ret.)

    I appreciate the opportunity to share some thoughts with you today 
on a security plan for Afghanistan. I have no access to classified 
information and my thoughts are a result of my experiences serving in 
heavy, light and SOF forces around the world, being a part of both 
victory and defeat.
    Why are we in Afghanistan? What's America's purpose? I understand 
that the mission is to disrupt if not destroy the al-Qaeda terrorist 
organization, deny them the sanctuary of Afghanistan, and remove the 
Taliban from power. Our military has removed the Taliban from power. We 
have not destroyed but we have disrupted al-Qaeda operations. We have 
denied sanctuary in Afghanistan, though be it, it has moved to 
Pakistan. But this is only the first phase of what our commitment is to 
Afghanistan. Any military operations' consolidation phase, or a country 
at war's reconstruction phase is the most difficult aspect. If we 
expect to see some semblance of rule of law, democratic government, 
free market economy, and institutional capacity--though not necessarily 
a replica of the U.S. model--we have a long way to go. (Enc--IC 
Challenge During PSO) If these are the criteria to define winning, we 
must stay the course and commit the time and resources and see the 
mission through. I believe that our responsibility is not only to 
destroy the enemy and make Afghanistan safer, but also to make it 
better.
    Nothing could be more detrimental to the prestige, honor, and 
credibility of the USA than not to accomplish what we set out to 
achieve. We must fulfill what we promise to others--in essence, to walk 
our talk. Our nation also has a responsibility to our military. Never 
send our Armed Forces into harm's way unless we maintain the will to 
win. It is very important to the American people that those who have 
already given the ultimate sacrifice have not done so in vain. What 
hurts a soldier more than austere conditions, fear, loneliness and even 
wounds is a lack of will to follow a mission through.
    It took the United States 10 to 12 years to kick start our form of 
government. We cannot expect Afghanistan, Bosnia, or any other country 
torn by war to do so in one or two years. That is why we should never 
put a time limit on an operation, but maintain the resolve for as long 
as it takes to reach our objectives. After years of murder, rape, and 
destruction, to love thy neighbor takes time. We Americans are attuned 
to the 100-yard dash, not the marathon. In Afghanistan's case this is a 
long run.
    The enemy has a vote on when victory is decisive. We are not 
fighting a nation state; in this case, the enemy is a terrorist 
organization--who decides on surrender? Who decides they are defeated? 
What are our measures for mission accomplishment?
    This particular fight in Afghanistan to defeat terrorists not only 
sets the example to the world for America's determination, but is 
critical to this region's stability. What happens in Afghanistan 
affects the overall security of Southwest Asia. This fight is not 
defined by Afghanistan's national borders; if so it would be like our 
fighting in South Vietnam, which at times had total disregard for Laos, 
Cambodia and North Vietnam. The enemy does not recognize borders but 
takes advantage of the vulnerabilities that these seams offer, and 
continually creates negative influences on our campaign, (i.e.--
paramilitary operations in Kashmir, to distract our efforts). We have 
to conduct our campaign regionally as well.
    The United States and our coalition have deployed a powerful 
military force in Afghanistan. Power matters, but power is relative to 
the situation at hand. Tangible power--bombs, tanks, and infantry 
battalions--are easy to quantify. But intangible power is hard to 
quantify, though relative to this kind of conflict. Propaganda, 
disinformation, black market payroll, and the manipulation of religious 
beliefs are as powerful as a B-52. We must be able to apply various 
means of power in not only the physical and organizational domains, but 
particularly in the moral domain, where we achieve the most effect. 
(Enc--Conflict Resolution--PSO/Combat) It is imperative that the 
coalition can strike hard with one hand and provide humanitarian 
assistance with the other. The people of Afghanistan, like any other 
people around the world, respect strength magnified by compassion. Our 
mission in Afghanistan requires a robust civil affairs, public affairs, 
psychological operations, and engineering effort to provide the 
humanitarian assistance and development projects critical to 
reconstruction, backed up by a viable strike force.
    Operation Anaconda got the attention of our enemy. The Taliban and 
al-Qaeda spent a lot of time preparing a firesack to trap and destroy 
coalition forces in the valley. They wanted to bloody Americans, to 
challenge America's resolve to continue the fight. They lost the 
battle. They have reassessed their strategy and are now laying low, 
conducting reconnaissance and small-scale guerrilla operations, 
influencing remote villages, waiting us out. In their minds, we will 
not stay the course.
    It is imperative that we sustain our efforts, in fact increase 
them, if we expect to win. Aggressive coalition and eventually, 
combined Afghan Army patrolling must continue to maintain pressure on 
the enemy, especially in the Eastern provinces. Our forces and efforts 
must adapt to the various regions of Afghanistan with a holistic 
strategy using military, other government agencies, and non-government 
agencies in a synchronized campaign.
    A robust, credible Afghan Army cannot be built without money, 
quality weapons, a multi-ethnic force mix, sense of pride, and a sense 
of purpose. The army should have a fair representation of not only 
Tajiks and Panjshiris, but also Pashtuns. The benefits of being a part 
of this army must outweigh anything warlords, terrorists, or black 
marketeers can offer. Our advisory efforts to this army are critical to 
success.
    The international security force, along with the Afghan Army 
eventually must operate outside of Kabul. They have no credibility 
unless they do so. To avoid confrontation, though there are always 
risks involved, they must work as combined patrols with the regional 
warlord militias. Regional, Coalition Liaison Teams are critical to the 
success of these combined patrols.
    We must recognize that warlords have special powers, and the Karzai 
government, as well as coalition leaders, must establish a cooperative 
relationship with them. Fighting them will just lead to disaster. The 
warlords' militias should be made an auxiliary part of the national 
army, paid to protect regional infrastructure, with emphasis on ``we 
are all Afghans.'' Without this cooperation, the road networks and 
bridges will never truly be developed and opened for trade and the 
establishment of a free market economy; humanitarian relief aid will 
never get to remote sites; and wells, schools, hospitals and 
communication infrastructure will never be constructed. Right now, the 
lifeline for the coalition forces is the air bridge. This cannot be 
sustained forever. Ground LOCs must be opened to continue military and 
nonmilitary efforts.
    The construction of major public works should not be done with a 
Brown & Root model. Though effective, it does not facilitate the 
commitment of the Afghan people. Reconstruction projects are a great 
opportunity providing work and a sense of pride to the local 
communities. What we want is an employed work force, not ``trigger 
pullers'' carrying AK-47s.
    A series of regional arsenals should be established to contain 
heavy weapons, still belonging to the regional warlords, but maintained 
and inspected by the national government and coalition advisors. An 
inspection program of these arsenals among warlords, supervised by the 
national army, should be instituted.
    U.S. military contributions to a sustained campaign to bring a 
chance of lasting peace to Afghanistan and the region should be as 
follows:

  <bullet> SOF teams (SF, CA, Psyops, Eng) co-located with regional 
        warlords and tribal chiefs at key villages and nodes.

  <bullet> Military advisors integrated throughout the Afghan Army.

  <bullet> Rapid Reaction Force to respond and support the coalition/
        national Afghan Army.

  <bullet> At least a combined arms brigade to continue search and 
        destroy operations against al-Qaeda/Taliban remnant forces.

  <bullet> Robust infrastructure/institution support elements (i.e.--
        civil affairs, public affairs, engineers, medical, 
        communication, etc.) to enhance nonmilitary reconstruction 
        efforts.

    Our nation has committed itself to the accomplishment of this 
mission. We have spent considerable resources to date, and have 
sacrificed human life. We are obligated to stay the course and win this 
fight.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, general.
    Mr. Ambassador, in my foray into Afghanistan and the 
region, as well as following it very closely here, I have not 
met anybody in uniform in place in Afghanistan, nor have I met 
anyone engaged on the ground in Afghanistan in a civilian 
capacity, who says anything other than what both of you just 
said, there is a need to expand the security force.
    Now, I think that the team the President has put together 
in his administration is made up of an awful lot of bright 
people. What is the disconnect here? What is the disconnect? 
How do you explain--and I am not suggesting you have any inside 
information, but how do you explain this, at best, reluctance, 
and most probably outright hostility to the notion of expanding 
ISAF?
    Does it relate to the conviction that we do not have enough 
reliable partners, and we will end up having to do it all? Does 
it relate to your opening comment, that the enemy of the good 
is the best, or however you phrased it? Try to give me some 
insight, knowing the country, and having worked in the last 
Bush administration. I am not trying to be critical; I am 
really not.
    Let me say one other thing. When I got back from 
Afghanistan, like everyone who makes the trek, I wrote a 
report; my staff and I wrote a report and discussed it with the 
administration. I was initially very hopeful that the 
President's assertions about a Marshall Plan, coupled with the 
recognition on the part of White House personnel in the country 
and from the National Security Agency, as well as folks at the 
State Department, that there is a recognition, there was a need 
for expanding any security--whatever you want to call it, 
security force beyond Kabul. To tell you the truth, I was a bit 
surprised when that battle seemed to be lost by those 
proponents who said that is the way to go. Help me out. What is 
this all about?
    Mr. Tomsen. I will try to. I want to repeat what you said, 
though, echo what you just said there, that we have to give the 
utmost praise to our military for what they have done in 
Afghanistan, and this brilliant victory, and what they are 
doing now. I mentioned the civil action groups that are right 
now out in the villages and towns, the only ones really in the 
whole international aid establishment community that I have 
seen doing work at the village level, with villages, in a 
practical domain.
    The Chairman. It is amazing.
    Mr. Tomsen. Yes. It is also unfortunate that--that is why I 
think this Henry Hyde Freedom Support Act initiative is so 
incredibly important. It will give a framework to a Marshall 
Plan-type initiative for Afghanistan. It gives it focus, it 
gives it a budget, and it gives it a coordinative mechanism 
inside the U.S. Government, like Rich used to do, and Bill 
Taylor does today, to make sure that those countries, 12 of the 
countries, which came out of the former Soviet Union are 
getting assistance in a coordinated way from our government.
    I was asked to appear on Christiane Amanpour's CNN show a 
number of times, and one time she asked me, this was in 
November, ``Why is CENTCOM, including General Franks, opposing 
the deployment of ISAF to Kabul.'' This was not to the other 
urban areas. It was to Kabul.
    I said, I think it is a mistake. You have just heard in the 
testimony division between, we have to go after the bad guys, 
which we do, al-Qaeda and the Taliban on the one hand, and on 
the other hand, on this other track, we have to assist 
Afghanistan to come back to the track of a normal country.
    The fact of the matter is that there is a thick linkage 
between these two, and you are only going to succeed in the 
first area if you have a functioning government, with military 
security, economic, political arms that work, which has the 
support of the people, and that is the Bonn track, and it is 
working. The loya jirga worked. They are going to have 
elections. Again, they are going to have parliamentary 
elections in 2004. That is the long-term answer, that is the 
moral domain, as my colleague stated here in his testimony.
    But I think what we are seeing, what the hangup is, it is 
from--within the Pentagon, there is this feeling that expanding 
ISAF is going to interfere with going after Taliban and al-
Qaeda. I think that is mistaken, and also there is a problem, 
and I think the Pentagon has a point here, that we have to get 
support of our allies to do this. But you are absolutely right, 
Mr. Chairman, unless the United States shows leadership, there 
is no chance we are going to get support of our allies.
    We can do it, if we show leadership, and we should have 
done it, in my opinion, 2 months ago. Indeed, the three 
commanders squabbling among themselves around Mazar-e-Sharif, 
causing so much friction up there, they have requested ISAF 
deployment to their region, because they know that they cannot 
continue.
    As the attacks were going on in November and December, some 
French and Jordanian contingents were deployed up there, 
working with these various groups, and their fighting stopped. 
Then the French and Jordanians left, and now the friction has 
resumed. So I just end up where I began. I think in answer to 
your question that the problem is coming from our uniformed 
services, who have performed so brilliantly and are still 
performing so brilliantly, I just think here it is political, 
and I am afraid that they are able to carry the day inside the 
Pentagon.
    The Chairman. Well, the irony is, and I do not--I mean you 
have been there, in terms of an administration working on this, 
this kind of reminds me, general, of, I was a broken record 
with the Clinton administration about exercising force in the 
Balkans. I will never forget, I came back from my first trip in 
1992 having met with Milosevic, where I had the interesting 
conversation, when he asked what I thought of him, and I said, 
``I think you are a war criminal and I am going to spend the 
rest of my career seeing that you get tried as one.'' It was a 
very nice conversation. I mean he looked at me like, ``lots of 
luck in your senior year,'' and that was it.
    But I came back, and at least in the Oval Office convinced 
the President that we should lift the arms embargo, and he 
turned to Christopher, who did not think that was a good idea, 
and he said, ``OK. We will do that, but we will not do it 
unilaterally, so Chris, head to Europe and talk them into 
this.''
    Christopher went to Europe, he was a fine Secretary of 
State, and a fine man, I am a great admirer of his, and 
basically said, ``You guys really do not want to do this, do 
you? We think we should lift the arms embargo, but you guys do 
not really want to do this, do you?''
    Everybody said, ``No, we do not want to do this,'' and that 
was the end of it. He came back and reported that no one wanted 
to lift the arms embargo.
    This reminds me of the same thing. I do not see, in my 
experience, where the uniformed military is objecting to 
expansion. I think the civilian military is objecting to the 
expansion, in country, in country. I am not going to get 
anybody in trouble, but in country, I could name you the 
highest ranking military officials, and they all think we 
should expand ISAF. This idea of legitimate concern, of 
interfering with the efforts of going after al-Qaeda--the 
remnants of al-Qaeda and the Taliban, that is arguably true in 
one of the three parts of the country.
    You might be able to describe this policy as sort of 
paraphrasing Julius Caesar, all of Afghanistan is divided into 
four parts. In one part, that is arguably the case, but it sure 
as heck is not the case over in the Iranian border. It sure in 
heck is not the case up in Mazar. It is not the case in other 
places. So I am confused here as to why, why there is this 
resistance, when on the ground with our military, there is not 
resistance.
    I mean I could--again, I do not want to get people in 
trouble, but I spent hours, and they say, no, no, no, look, it 
has to be expanded, and asking the Europeans and other allies 
to expand, and say we are unopposed to expansion is very 
different than saying, ``I want to make clear to you, we are 
not going to be any part of it. We are not going to supply any 
forces. We are going to stay here and concentrate on this, but 
we encourage you to expand.'' It is sort of like Christopher's 
trip to Europe. So, I still am somewhat baffled.
    I am going to come back in the next round, general, to you, 
I want to talk to you about the Bosnia experience, and whether 
or not it applies in any way. But, Mr. Ambassador, I do not--I 
think it has to do with this overwhelming and overarching fear 
and concern, practically and politically, about nation 
building, and about us being engaged there.
    Mr. Tomsen. Could I comment just briefly?
    The Chairman. Please.
    Mr. Tomsen. I think the President himself has come out 
forcibly in underscoring that we are going to stay, for a 
Marshall Plan. We are in there for the long haul. What you are 
getting at, I think, and what I was trying to get at is this 
misconception that there is an internal contradiction between 
going after al-Qaeda and the Taliban on the one hand, and 
helping the government develop the institutions that it needs 
to in helping the country move back onto a free market 
democracy track, which it was on in the 1960s and early 1970s, 
that there is a contradiction here. And the answer to this is, 
there is not a contradiction, and that is what I mentioned on 
the Christiane Amanpour show, that one supports the other, and 
ultimately if you have a central government that is functioning 
with democratic institutions, it is going to help in the task 
of going after al-Qaeda and the Taliban. There is a 
misunderstanding of this.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman. I was interested in 
your support of Senator Hyde's Afghanistan Freedom Support Act. 
I will look at his bill and see what he has done. It may help 
satisfy the question I raised with the first panel, and that 
is, is there an overall plan that lays out a course of action, 
at least one that is coherent enough for us as lay people to 
read and understand? Secretary Armitage said that he would send 
a letter outlining these elements, and he went through a number 
of prerequisites. So there may be something there, but I am not 
sure, and that is why I have asked the question. Now you are 
suggesting that this legislation, may serve a similar purpose 
as the Freedom Support Act did at the time of the fall of the 
Soviet Union. This might be helpful in laying out a strategy 
and a plan.
    I would like to see a small book, and maybe this would be 
just for my own edification, in which we recite the very 
important history of Afghanistan. Afghanistan is a sovereign 
state, unlike Palestine, or other states we are talking about 
at the current time.
    Afghanistan seemingly governed itself reasonably well for 
much of this century before disruptions occurred. So that is 
encouraging as a background. Because most of us hearing all the 
testimony and the current events see a chaotic situation of 
near anarchy, of warlords at each other's throats. There is 
almost denial of the central government, and you are saying 
that was not always the case, and that there at least is some 
experience in this area, and the question is how you get back 
to that.
    Now, if we did get back to that, without knowing the 
history of the country, my guess is that our expectations would 
be greater for the people of Afghanistan. We have discussed the 
role of women, democracy, freedom, education, health, and so 
forth. It is clear we must help establish standards well beyond 
those that existed in the 1930s. This will require assistance, 
economic assistance, technical assistance, and that must be 
part of the plan, and an Afghanistan Freedom Support Act.
    The problem with the former Soviet Freedom Support Act was 
that ultimately most of the pieces sort of fell off the wagon, 
because there was lack of support in Russia. The institutions 
there were so forbidding that even though we were talking about 
agricultural reform, they were not, and we are still discussing 
this in a rudimentary way today. So even here, it is not 
skepticism, but some sense of limitation as to how much occurs 
how fast. I ask this question as a preface.
    Clearly, there is a debate going on in our administration 
on how involved we should be in Afghanistan. It started with 
the war, and the thought was that our role should be limited to 
the fewest people, helicopters, et cetera, instead we hoped to 
rely upon Afghans on the ground, and others. This phobia may be 
well-founded, in the past others had got bogged down, and we 
would not. So that is the way we fought it, and it was 
successful. It was remarkable.
    Now, the problem of governance after all this is a 
different sort of issue. And the feeling is, still, you might 
get bogged down almost in the same way, caught between warlords 
and ethnic leaders. Many feel this is untenable, and would not 
be supported by the American people for very long. Therefore, 
you keep walking around the problem and studying it to 
determine how can you do this with the least number of people 
on the ground, maybe even money?
    I am trying to come to grips with how we move beyond that. 
I share the chairman's anxiety in many ways, that somehow or 
other the Marshall Plan idea, the President's commitment, all 
these things have been enunciated in a fairly bold way. But I 
am still looking for the plan, and a structure of how this 
occurs, and some dollar amounts attached to it, with numbers of 
American military forces as well as diplomatic presence in 
conjunction with allied contributions necessary to accomplish 
our goals.
    Mr. Tomsen. To answer the first part of your question, my 
testimony has three elements that are there in the Freedom 
Support Act. One is what you were getting at earlier in the 
hearing, a strategy, a reconstruction strategy, which is 
missing, an umbrella, and from democracy, to women's rights, to 
infrastructure, to education, you want to see a structure and a 
strategy, and if you look at the material that has come with 
this Henry Hyde bill, it describes that strategy objective.
    Second, it is a separate budget. You will have a press 
conference in the administration, and somebody wants to say 
something nice, it is going to be on Afghanistan, so it is 
announced that $100 million has been allocated for refugee 
assistance, but it has already been allocated; or say, $10 
million is taken from another pot of money in the 
administration for announcement of this press conference. There 
is not the overall coherence you need which would come with 
something like the Freedom Support Act. Most important, and I 
noticed this when I was the U.S. Ambassador to Armenia for 3 
years, the presence of this coordinator mechanism in the State 
Department, not in one of the elements of the aid community, 
but right there in the State Department, the last stop before 
the budget goes to the Hill, the final budget, was of an 
advantage to ambassadors, because we could talk to our staff, 
and I had 12 agencies at post, and put together an integrated 
plan, and then send it to this coordinator mechanism, 
Ambassador Taylor now, and then the budget would go up to the 
Hill.
    So in the field, we were coordinated, and in Washington 
there was coordination, because USAID and USIA, and other 
elements of the aid community, had to be coordinated by this 
coordinator. So you need that for Afghanistan, since so many 
agencies and departments now are involved in Afghanistan.
    Congress took the lead on the Freedom Support Act. It did 
not come out of the administration. You guys said, ``Hey, there 
is a problem here,'' and you resolved it, and you did. So I 
would argue that you should do it again.
    Senator Lugar. I applaud each of those three steps, because 
I think that is really the heart of the strategy, to begin 
with, and not improvisation with funds, and which somehow you--
there is something from some other account, which we cannot 
possibly follow, as you say, it was already there, maybe. It 
would be hard for us to be bookkeepers. There just is not a 
discreet plan, or financing, or coordination, so I really 
appreciate those answers, because they are really a rifle shot, 
it seems to me what we ought to be about in our questioning and 
our oversight.
    General Grange. Mr. Chairman, can I add a quick comment to 
that question?
    The Chairman. Sure.
    General Grange. Because I think Senator Lugar hit on two 
key things that I associate with from my experience in the 
military. One is this overarching strategy. In the military we 
have something called the commander's intent, and that really 
sets the purpose, and what has to be done, what is the end 
state of any operation, and commander's intent is something 
that goes to everyone who is involved, and everyone then is 
supposed to understand it, to execute it properly. So I think 
that that is essential, a strategy, a commander's intent.
    The other piece that you mentioned was the phrase ``bogged 
down.'' We are associating that with the Soviet experience when 
we use that phrase. But if it has to do with time, we are going 
to be there for some time. So the point is, why do it on the 
cheap? Why not do it right, and set it up as an example for the 
world to see that we do follow through with what we say we are 
going to do, and complete the mission?
    Mr. Tomsen. Could I have 20 seconds to followup on this?
    The Chairman. Sure.
    Mr. Tomsen. Thank you. More than 20 seconds?
    The Chairman. Sure.
    Mr. Tomsen. Thank you. The Afghans want the United States 
to be intrusive; they do not want thousands and thousands, say 
10,000-20,000 U.S. troops with fire support, and bases like in 
Vietnam. I think General Franks and CENTCOM have, again, have 
just performed brilliantly in keeping us at the 7,000 or below 
level, but they want America there symbolically, and in 
substance.
    And it does not matter how many Americans are there in an 
aid capacity, or, say, nonmilitary capacity. They see us as 
having given them the wherewithal to defeat the Soviets, which 
we did. They defeated the Soviets. They saw us as helping them 
throw off the yoke of the Taliban and al-Qaeda, which our 
military did. So we have a very good image and reputation in 
Afghanistan. We should not worry too much about intrusiveness, 
if we stay away from deploying tens of thousands of troops 
there, as the general and others have mentioned.
    The Chairman. Thank you.
    Senator Hagel.
    Senator Hagel. Thank you, Mr. Chairman.
    Welcome to each of you.
    As you, Senator Lugar, and you, Chairman Biden, know each 
of these individuals, I do, and I am a friend of each, and I am 
an admirer of each, and not just is it a result of my narrow 
parochial interests that Ambassador Tomsen resides at the 
University of Nebraska at Omaha.
    I think these two witnesses have laid out the best dynamics 
of understanding of what is going on that I have yet heard and 
have yet read. I think both of you, each of you, have it right, 
exactly right, and I am not sure I would disagree with a 
sentence in any of this.
    Now, with that, and I am just sorry that our two Deputy 
Secretaries are not here to hear this, and I am going to send 
them each a note today with copies of your testimony, and 
request that they take the time to read, which you have each 
written.
    Senator Lugar is, I think, on track with his general 
question that he has just proffered, and it resembles somewhat 
the line of questioning that I had for Secretary Armitage. When 
I asked the question, what is the integrated overall policy of 
this administration, not just in Afghanistan and Pakistan, 
which he acknowledged are interrelated, and when I developed 
that a bit, the Secretary did not give me a very good answer, 
and I had 7 minutes, so I did not have a chance to come back 
and talk more about it.
    But here is the point, I am concerned with what we are 
doing in Afghanistan, because I fear it is being seen and will 
be seen as kind of a glancing blow strategy, not our role, not 
our responsibility kind of strategy, and we heard remnants of 
that from both the Secretaries this morning. That was not our 
intent when we went to Afghanistan, be in for the cheap, get 
out for the cheap, and, of course, we declare war on Iraq 
weekly, and threaten to invade, and I am not sure that helps 
our overall focus and discipline and resources.
    And it is like the general knows so well, resources matter; 
but what matters most is where you apply those resources and 
how you use those resources. Because even America--in America, 
we have finite military capabilities and assets, and the 
general knows that, as well as do you, Mr. Ambassador.
    The general's comments here about the blow to American 
prestige and honor, aside from what this would do, unravel our 
war against terrorists, and our overall objective, and partly 
why I asked Secretary Armitage that question about reversal of 
the optics. And do you think that anything we do in that 
region, Afghanistan and Pakistan is in any way interpreted by 
anybody else around the world, that we may not just be, and I 
know this is a concern, trying to do too much, in one sense, 
but at the same time, too little?.
    I think there is a conflict, that my sense is that Senator 
Lugar was getting to a little bit, as well as Chairman Biden, 
there is a bit of a schizophrenic kind of approach to all of 
this. I am one who believes and have believed, believe more 
today than I did a few months ago, that our commitment in 
Afghanistan must include exactly what the two of you have laid 
out here, and it cannot be done on the cheap.
    There is just too much writing on this, and I would be 
interested in your defining, each of you, a little bit deeper 
than your testimony in any way that you want to take this, 
numbers, aid. You mentioned, Mr. Ambassador, that you have 
heard and know of in your constant relationships and contacts 
with people over there, that the aid is not getting done. That 
cuts right to the credibility of our word, our commitment.
    Now, we can come up and testify at all these fancy 
hearings, and say, ``Oh, no, we have $4.5 billion,'' but, in 
fact, when you get on the ground over there, do they really 
have $4.5 billion, and where is it going? The unraveling 
process will come quickly, as each of you know, because each of 
you had real-life experiences in these kinds of things.
    So I throw out to each of you, as I have made some comments 
overall, but to take my thoughts, comments, questions, and 
proceed in any direction you wish to go, because I do not think 
either one of you overstates the concerns you have, based on 
not just your own experience and knowledge, but on a perception 
and a perspective that few of us have.
    So go ahead, Mr. Ambassador, you begin.
    Mr. Tomsen. Thank you, and thanks for all your help, 
Senator, at UNO, University of Nebraska, and our Center for 
Afghanistan Studies, too.
    I want to answer the general question about what influence 
this is having internationally and regionally, what we are 
doing in Afghanistan. I would give a positive and a negative 
side to that. On the positive side, if we succeed in 
Afghanistan, we will be creating a model of an American-led 
international operation, helping a Muslim population to throw 
off extremism, Muslim extremism, and returning to the road of 
democracy, and economic development, and moderate Islam.
    So Afghanistan could be a model for the Muslim world, and 
internationally, a country that was sunk into the abyss of 
radical extremism, al-Queda, and the Taliban, but its 
population did not want it. Its population was moderate Islam, 
and we helped them get back on the track, and prosper. So that 
would have a ripple effect, I think.
    One of the reasons why the Iranian clerics--I would not say 
the Foreign Minister or the President of Iran, I would say the 
Iranian clerics--are interfering against Hamid Karzai, because 
they are worried that this model might succeed.
    Also, if Afghanistan, given its location, can get back on 
the right track, it will be a crossroads for global corridors 
of trade, and commerce, and telecommunication connecting 
Europe, and China, and Russia, and South Asia.
    On the resources, doing it right, if you want to build a 
well, for example, or reconstruct a school, or road as our 
Special Forces are doing, it only cost $200 or $5,000. Not 
much, but we have to do it right, and we will not be spending 
that much at the local level. Unfortunately, the way the aid 
bureaucracies are organized, internationally and in our own 
country, is that 80 percent of the money gets sopped up by 
salaries for expatriates, the Americans, or U.N. types, as the 
case may be, trips to the region, and in the end, there is not 
much action on the ground, in terms of actual projects. The 
Armenian Prime Minister used to complain to me all the time 
about international aid projects in his country.
    I guess I have run out of time, so I will stop there.
    The Chairman. General?
    General Grange. I think that actually goes back to all the 
questions that have been brought up, and that is, I believe our 
concern is three major things. One that I will just disregard 
right away is: I do not think we are hung up on this aversion 
to have casualties like we used to be. I do not think that is 
really the big issue now, but I think these are the issues of 
maybe the hesitant nature of what is going on.
    One is that getting in a fight with others, as you expand 
out of Kabul with a security force, no one wants to get into a 
fight with others while we are still fighting the Taliban and 
the al-Queda. I think that is a concern.
    No. 2 is that the commitment, as this broad front with the 
war on terrorists, it is a broad front. It is a global 
commitment. And I believe, when I left the military at the end 
of 1999, we worked pretty hard, and we did not have the war on 
terrorism yet. The division I commanded, when we went those 2 
years--and some of you visited our units. We were all over the 
map. And it is hard to say what mission could be eliminated, 
and what you continue on with.
    But it was quite a lot of commitment, not only in time, but 
people, and, of course, resources, ammunition, equipment, et 
cetera. So there is a concern on commitment with more in 
Afghanistan. I think those are the two main issues of concern.
    To solve that, one is that, in my mind, I would think 
Afghanistan was the main effort. We are not fighting Iraq right 
now. I mean we may be gathering intelligence and that in other 
places around the world, and we have other things, the Republic 
of Georgia, Yemen, Philippines, Colombia, et cetera, but the 
main effort in my mind, I would think, would be Afghanistan. 
And if that is your main effort, that is what you resource to 
accomplish the mission.
    And I agree with what the ambassador said, if that is 
successful, I believe through the optics of others in that 
region with different cultures, that some of the other people 
we have problems with will fall in line, because it will be a 
model, it will be a success story, and success stories, people 
want to emulate.
    So I really think there is something there, and if we win 
that, it will have a great effect on what we are trying to do 
globally. Thank you.
    The Chairman. Thank you. Gentlemen, we have kept you a long 
time. I just want to make two relatively brief comments.
    First, I think your experience in Bosnia showed you, 
general, that all the protestations by elected officials up 
here turned out to be wrong. From 1993, on, I heard from 
everyone that the American public will never sustain the 
allocation of forces, and the deployment of forces in the 
Balkans. It will not happen. I do not know anybody who ran a 
campaign for Congress or the Senate who won or ran on the 
ticket, ``Bring the boys home.'' I have not had anyone come up 
knocking on my door or out there saying, ``The most important 
thing is get out of Bosnia, get out of Kosovo, bring the boys 
home.''
    Second, the polling data overwhelmingly sustains the 
position that the American people understand that we have to 
keep forces in Afghanistan. The job is not done, and we have a 
long way to go. They are pretty smart. They have it figured 
out.
    I think that part of the problem here is that there is a 
disconnect with some, both a hangup and a disconnect. Some of 
our--what is left of the left, and what is the furthest of the 
right seem to have gathered together to conclude that we are 
overextended, and nation building is not something we should be 
involved in.
    I had a long meeting with the President where he outlined 
for me for an hour and 45 minutes what we had to do, and I was 
impressed. In walking out--I will not mention the official's 
name, as I got from the Oval Office out into the West Wing, but 
we were outside and this particular official came running down 
the hall and said, ``Are you going to stop at the stakeout?'' 
Meaning where the press is.
    I said, ``Not if you do not want me to,'' and they wanted 
me to, because it was a bipartisan effort here.
    They said, ``Not that we want you to, but you are not going 
to mention nation building, are you?''
    I said, ``You mean what the President has spoken to me 
about for the last hour and 45 minutes?'' I said, ``No, I won't 
mention that.''
    There is an incredible hangup on this notion about ``nation 
building,'' just the use of the phrase, in my experience.
    Second, I really do think that there is a disconnect among 
some in the Congress and the administration, between our 
objectives with regard to Iraq and the unfinished business in 
Afghanistan. I have had numerous world leaders and counterparts 
in parliaments in Europe say, ``You want to go in and take down 
Saddam, and you are not even going to stay in Afghanistan.''
    The greatest worry I find, Mr. Ambassador, is they are 
worried about not whether we can take down Saddam, but what do 
we do after we take him down? I facetiously say, ``Your old 
boss stopped for a simple reason. He didn't want to stay for 5 
years in Baghdad.''
    So I hope we can begin to articulate this correlation 
between getting the job done properly in Afghanistan and our 
flexibility and ability to deal in other parts of the world, 
and what impact failure to do that might have on interest in 
other parts of the world, but both your testimonies have been 
extremely helpful.
    General, you headed up Task Force Eagle in Bosnia. Do you 
think it is time for us to get out of the Balkans and out of 
Bosnia?
    General Grange. No, but I would like to--I think we can do 
it better. I have looked back hard at peace support operations, 
whether they be chapter six peacekeeping, chapter seven peace 
enforcement, et cetera.
    When I got to Bosnia, I believed we were in a reactive 
mode. You do not win. You do not accomplish a mission in 
reactive mode. You have to be proactive, and we moved to a 
proactive mode. But then if you are really good, you then go to 
the next phase, which I call interactive. And that is some of 
the things that I think the ambassador, and myself, and others 
laid out in our testimony, and that is how you integrate with 
the communities involved in the operation, and with the people 
that you are dealing with, the people of that nation.
    You interact, so you really have a taste, a feel, you see 
what is going on, and you know what to do, and when. And we got 
pretty good at it at the end of our tour. But you cannot do 
that with a base camp mentality, giving soldiers, hamburger 
joints, and cappuccino stands. You have to do that by getting 
out, not sitting in base camps, but getting out with the 
society that you are dealing with.
    I would do the MFO different. I would use that as an 
emergency deployment, readiness exercise, live-fire training, a 
dessert training area for the United States Army. And if Israel 
and Egypt did not like that, then I would pull out. I would tie 
the requirement into some of the things we are supposed to be 
ready to do for war. There is just a lot of things we can do to 
make these missions better, more effective for our readiness.
    Any of these missions, any of these missions that I have 
been on--and in Bosnia I had 29 different units working for me, 
not counting the allies. Any of these missions, when some kid 
looks up at the American flag on the right sleeve of the 
soldier, you know you are making a difference, because a lot of 
people hate that flag, but I think more love it, and it makes a 
difference.
    The Chairman. Well, thank you both for your time, your 
testimony, and your input. Hopefully together--we are joined 
together bipartisanly here, and hopefully together with the 
administration we can develop or be part of implementing that 
agenda, that plan, but like the Senator from the great State of 
Indiana said, I have not seen it yet, and I am anxious to see 
it.
    I thank you both very much, and we are adjourned. Thank 
you.
    [Whereupon, at 1:51 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]

                              ----------                              


             Additional Statement Submitted for the Record


           Prepared Statement of Senator Russell D. Feingold

    I am pleased to be here today to consider the status of our efforts 
in Afghanistan. In particular, I am grateful for the opportunity this 
hearing provides to discuss some of the specific diplomatic and 
humanitarian efforts that will be necessary to build a more secure and 
prosperous future for the people of Afghanistan.
    In Afghanistan, we have witnessed nearly all of the alarming 
characteristics of many of the world's weakest states. Such states 
attract terrorists and other international criminals who depend for 
their survival on manifestations of lawlessness such as piracy, illicit 
air transport networks, and trafficking in arms, drugs, gems, and 
people. The terror that accompanies these shadowy groups further 
weakens the integrity of the host state, while encouraging grave human 
rights practices on an ever larger scale. We saw this on September 11, 
but the suffering caused by such terrorist groups runs much deeper. 
Indeed, such networks fuel conflict, inhibit legitimate economic 
development and provide a breeding ground for increasingly dangerous 
terrorist activities world-wide. Afghanistan proves why such weak 
states must not be allowed to threaten our global order. But now, 
Afghanistan must also stand as a testament of the international 
community's commitment to securing and rebuilding those same societies.
    At the same time, no hearing on Afghanistan could overlook the 
rights of women and girls who have suffered so ferociously under the 
Taliban regime. In recent months we have watched with horror as the 
women of Afghanistan have emerged from their enforced seclusion to 
describe years of abuse. The world has witnessed few more egregious 
examples of institutionalized discrimination against women, although we 
must recognize that women in many other societies are living equally 
restrictive lives. Once again, our progress in promoting the re-
integration of women into the public life of Afghanistan will long be 
viewed as a test of our global commitment to the advancement of women's 
rights.
    I firmly believe that a secure future in Afghanistan depends on the 
ability of the international community to promote human rights and 
democratic governance during this crucial transition period. This will 
not be an easy task in the aftermath of so many years of segregation, 
violence, and institutional collapse. But our efforts in Afghanistan 
will serve as a much larger measure of our commitment to building a 
more secure global environment. We are a strong and prosperous nation. 
And we must understand that our security ultimately depends on our 
ability to build similarly prosperous, democratic societies around the 
world.
                              ----------                              


             Additional Questions Submitted for the Record


   Responses of Hon. Paul Wolfowitz, Deputy Secretary of Defense, to 
  Additional Questions for the Record Submitted by Senator Joseph R. 
                               Biden, Jr.

                              afghanistan
    Question. Are there any circumstances under which the United States 
would be willing to consider participation in the expansion of the 
International Security Assistance Force (ISAF)? If so, what are those 
circumstances?

    Answer. The Bonn Agreement asserted the Afghans' responsibility for 
providing their own security, and established the International 
Security Assistance Force (ISAF) to assist them. The ISAF serves in 
Afghanistan under authorization of UN Security Council Resolution 1386 
(20 December 2001), which limits ISAF to Kabul and its surrounding 
areas. UN Security Council Resolution 1413 extends the same mandate 
under Turkish lead through December 2002.
    The United States already supports ISAF in several ways, including 
through our position on the UN Security Council, which specifically 
authorizes the extension of the ISAF operating mandate, most recently 
through December 2002. Through a liaison cell in Kabul, the U.S. 
Central Command assures deconfliction of military activities. The U.S., 
through a bilateral Letter of Arrangement with the ISAF lead nation 
(currently Turkey), is committed to provide certain other kinds of 
backstopping support, as needed in emergencies and depending on 
available resources.
    The U.S. is not opposed to ISAF expansion. However, other countries 
have not been willing thus far to provide the resources, logistical 
support, and personnel sufficient to support expansion outside of 
Kabul. We have also believed that security outside Kabul could be 
assisted through other means. We continue to monitor the situation.

    Question. Are there any circumstances under which the United State 
would be willing to consider active diplomatic and military support for 
the expansion of ISAF? If so, what are these circumstances?

    Answer. The U.S. does not oppose ISAF expansion. However, other 
countries have not been willing thus far to contribute the resources, 
logistical support, and personnel needed to support expansion of ISAF's 
mandate outside of Kabul. We have also believed that security outside 
Kabul could be assisted through other means. We continue to monitor the 
situation.
    ISAF operates in Afghanistan under authorization of the UN Security 
Council (Resolution 1386, 20 December 2001). Should the UN decide to 
expand the ISAF mission, the U.S. would work in the Security Council to 
craft a sustainable mission. Complicated issues of command and control 
for ISAF deployments outside of Kabul would also need to be resolved.

    Question. Are U.S. forces currently tasked with the mission of 
upholding internal security and maintaining law and order in 
Afghanistan? Are there any contingency plans to task U.S. forces with 
this mission?

    Answer. U.S. forces are not tasked with the mission to uphold 
security and law and order. Maintenance of security is the 
responsibility of the Afghans. However, small numbers of U.S. Special 
Operations Forces and Civil Affairs teams have on a number of occasions 
acted as intermediaries and exerted a constructive influence to dampen 
conflicts among regional leaders. These personnel are stationed around 
the country and interact with key regional leaders. They have proved 
extremely effective also at delivering humanitarian aid, getting 
infrastructure projects identified and started, among other tasks.

    Question. Have any government officials, or U.S. military 
personnel, instructed Pacha Khan Zadran (and other recalcitrant 
warlords on the U.S. payroll) to accept the authority of the central 
government?

    Answer. Yes. Pacha Khan Zadran has been urged by U.S. Special 
Operations Forces personnel on a number of occasions to accept the 
authority of the Afghan Transitional Authority.

    Question. There are numerous reports of interference with and 
attacks against staff engaged in delivery of humanitarian assistance, 
especially in the area around Mazar-e Sharif. In the wake of the rape 
of an aid worker and attacks on relief vehicles, international NGOs 
this weekend issued a strong plea for expansion of international peace 
keeping forces. What is the administration's plan for dealing with 
these law-and-order failures in the near term?

    Answer. The Afghans acknowledge their responsibility for providing 
security in Afghanistan. Law-and-order issues fall outside the DOD 
mission in Afghanistan. The U.S., however, is fully engaged in 
addressing these issues and concerns. We support the UN--in New York 
and through its Assistance Mission in Afghanistan (UNAMA)--in helping 
the Afghans to address these outrages.
    UN Special Representative Lakhdar Brahimi (UNAMA's head, and in 
conjunction with the Afghan government, and the international 
community) is working with regional leaders in Afghanistan to ensure 
they honor commitments to facilitate provision of assistance to 
communities in need.
    As noted, the NGO community in northern Afghanistan has confronted 
local leaders about security conditions, and has undertaken a local 
media campaign to explain the risks of decreased aid if these abuses 
continue.
    Our Ambassador in Kabul and the Director of the U.S. Agency for 
International Development (USAID) have also expressed directly to 
regional leaders the U.S. government's concern about the security 
situation in their areas, and have called on them to fulfill 
commitments to provide proper security, and to hold accountable those 
responsible for recent attacks.
    Training and deploying Afghan military and police forces will 
mitigate many of these concerns.

    Question. How long is the training and equipping of an independent 
Afghan national army and police force expected to take? How much money 
has the administration requested for these operations, and how much 
will be required in the coming year?

    Answer. The Afghan National Army (ANA) training program began in 
May 2002.
    The U.S. Central Command projects that the U.S.-led effort will 
train over 14,000 soldiers in light infantry and border guard units in 
approximately 18 months (provided adequate numbers of recruits), 
creating the largest army in Afghanistan. In December 2003, Afghan 
trainers--already being prepared--will take the lead in this training 
program. The first ANA battalion will graduate on July 23, 2002.
    The State Department supplemental appropriation request seeks $70 
million for ANA training and recruits' salaries ($50M in Foreign 
Military Financing and $20M in Peacekeeping Operations funds). In the 
DOD supplemental, we requested authority to move up to $100 million in 
DOD funds from other programs or operational funds into ANA training, 
if appropriate. Passage of DOD's supplemental funding request will help 
ensure that the ANA training program can fulfill its mission of 
fielding a military force that can provide security in Afghanistan over 
the long term.
    The German government has the lead for Afghan police 
reconstruction. Within the U.S. government, the State Department 
manages U.S. contributions to the police reconstruction effort and can 
best address this issue.

    Question. What provisions are in place to maintain security during 
the interim period before an Afghan army and police are fully 
operational? If the administration does not support ISAF expansion, and 
if U.S. forces are not being used as peacekeepers, what is our 
strategy?

    Answer. The Afghans acknowledge their responsibility for providing 
security in Afghanistan. We are working with them to build their 
capacity to take on this responsibility. Through the training of the 
Afghan National Army (ANA), border guards (included as part of the ANA 
training program), and police, the Afghan government will become better 
able to provide broader security on its own.
    In those areas where trained Afghan national forces have not yet 
been deployed (or will not be available for some time), local 
commanders are using their own men and resources to provide security. 
That is the commitment they have made to the Afghan Transitional 
Authority that emerged from the June loya jirga.
    The U.S. and international community are working to give Afghans 
the training and equipment they need to solve these problems on their 
own--effective military and police forces.
    The U.S. is not opposed to ISAF expansion. No nation has come 
forward with the numbers of men and other resources necessary to 
support a sustained mission outside of Kabul however.
    As an interim measure, the U.S. is using combined teams of Special 
Operations Forces, Civil Affairs, U.S. Agency for International 
Development and State Department personnel, working with regional and 
local leaders, to assist in maintaining stability in the regions. On 
numerous occasions, these U.S. personnel, though few in number, have 
exerted their influence effectively to help dampen conflicts among 
regional leaders and to promote national unity.

    Question. The current ethnic makeup of the Afghan army, under the 
control of Marshal Muhammad Fahim, is overwhelmingly skewed toward 
Panjshiri Tajiks. What safeguards will the United States put in place 
to insure that the Afghan army we are training will adequately reflect 
the ethnic makeup of the country?

    Answer. The Afghan government has made the commitment to provide 
Afghan National Army recruits that reflect the ethnic mix of the 
country. This is an Afghan responsibility, but one that we support as 
part of our efforts to help field a credible national army. So far, the 
ethnic breakdown of the first two battalions trained by the U.S. 
Central Command has roughly corresponded to the ethnic makeup of the 
country.

    Question. Throughout Afghanistan, many regional commanders allied 
with the United States have perpetrated abuses on the Pashtuns, who 
form the largest ethnic group in the country. What actions are being 
taken to prevent a Pashtun backlash against the United States?

    Answer. Ultimately, ethnic harmony in Afghanistan depends on the 
success of the Afghan Transitional Authority, with its balance of 
ethnic, political, and regional forces as developed by Afghans 
themselves in the June loya jirga. In the meantime, the U.S. response 
to human rights abuses has been swift and vocal. Through our embassy in 
Kabul, the U.S. government has sought to promote better human rights 
observance across Afghanistan. Whenever and wherever abuses have been 
committed, the U.S. has denounced the acts publicly, to President 
Karzai, and to regional or local leaders where such abuses have 
occurred. The U.S. also supports public awareness campaigns promoting 
human rights in Afghanistan, and highlighting our leading role in 
helping the Afghan government build a new, tolerant state where such 
abuses are a relic of the past.
    Unfortunately, many groups harbor long-standing feuds and hatreds 
against one another, and some are tempted to settle old scores.
    The U.S. has also supported UN Special Representative Lakhdar 
Brahimi's efforts to bring such abuses to an end across Afghanistan.

    Question. What is the United States doing in response to acts of 
violence against women in the north and intimidation tactics against 
employment and education of women in the south? What has the U.S. done 
to address the physical intimidation of Sima Samar?

    Answer. The U.S. response to human rights abuses--including abuse 
of women and girls across Afghanistan--has been swift and vocal. Our 
embassy in Kabul has been involved in efforts to promote better human 
rights observance across Afghanistan. Whenever and wherever abuses 
against women have occurred, the U.S. has denounced the acts publicly, 
to President Karzai directly, and to regional or local leaders where 
such abuses took place. We have also approached the Afghan government 
to improve security for women officials and international workers in 
Afghanistan.
    In addition to policy pronouncements, the U.S. has sought to 
improve the material lot of women and girls in Afghanistan through 
practical measures. The U.S. was actively involved in promoting the 
establishment of a cabinet-level Ministry of Women's Affairs in the 
Afghan government, as well as a Human Rights Commission. Through our 
aid and funding, the U.S. provides broad institutional and program 
support that improve the lives of Afghan women and children. The U.S. 
is involved in a public-private partnership activity--the U.S.-Afghan 
Women's Council--which focuses attention on women's issues in 
Afghanistan. The U.S. also supports public awareness campaigns 
promoting human rights in Afghanistan, and highlighting our leading 
role in helping the Afghan government build a new, tolerant state where 
such abuses are a relic of the past.
    Concurrent with our work with Afghan government officials, the U.S. 
has supported UN Special Representative Lakhdar Brahimi's efforts to 
bring such abuses to an end across Afghanistan. In this, Brahimi is 
joined by the UN Commission for Human Rights, which monitors violence 
in Afghanistan.
    The State Department has released a report to Congress, ``U.S. 
Support for Afghan Women, Children and Refugees,'' that addresses in 
greater detail U.S. government efforts in this area. See 
<www.state.gov/g/wi>.

                                   - 

</pre></body></html>
